<html>
<title> - [H.A.S.C. No. 116-79] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2021 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-79]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

  SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES 
                                HEARING

                                   ON

                    REVIEWING DEPARTMENT OF DEFENSE

                    SCIENCE AND TECHNOLOGY STRATEGY,

                        POLICY, AND PROGRAMS FOR

                    FISCAL YEAR 2021: MAINTAINING A

              ROBUST ECOSYSTEM FOR OUR TECHNOLOGICAL EDGE

                               __________

                              HEARING HELD
                             MARCH 11, 2020
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





                             ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-443               WASHINGTON : 2021 
 
                                     
  


   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

               JAMES R. LANGEVIN, Rhode Island, Chairman

RICK LARSEN, Washington              ELISE M. STEFANIK, New York
JIM COOPER, Tennessee                SAM GRAVES, Missouri
TULSI GABBARD, Hawaii                RALPH LEE ABRAHAM, Louisiana
ANTHONY G. BROWN, Maryland           K. MICHAEL CONAWAY, Texas
RO KHANNA, California                AUSTIN SCOTT, Georgia
WILLIAM R. KEATING, Massachusetts    SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 MIKE GALLAGHER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       MICHAEL WALTZ, Florida
JASON CROW, Colorado, Vice Chair     DON BACON, Nebraska
ELISSA SLOTKIN, Michigan             JIM BANKS, Indiana
LORI TRAHAN, Massachusetts
                Bess Dopkeen, Professional Staff Member
               Eric Snelgrove, Professional Staff Member
                         Caroline Kehrli, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     1
Stefanik, Hon. Elise M., a Representative from New York, Ranking 
  Member, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities...................................................     3

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy for 
  Research, Development and Acquisition, Department of the Navy..     5
Griffin, Hon. Michael D., Under Secretary of Defense for Research 
  and Engineering, Office of the Secretary of Defense............     4
Jette, Hon. Bruce D., Assistant Secretary of the Army for 
  Acquisition, Logistics and Technology, Department of the Army..     4
Roper, Hon. William B., Jr., Assistant Secretary of the Air Force 
  for Acquisition, Technology and Logistics, Department of the 
  Air Force......................................................     7

                                APPENDIX

Prepared Statements:

    Geurts, Hon. James F.........................................    65
    Griffin, Hon. Michael D......................................    39
    Jette, Hon. Bruce D..........................................    57
    Langevin, Hon. James R.......................................    35
    Roper, Hon. William B., Jr...................................    82

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Dr. Abraham..................................................   103
    Mr. Cooper...................................................   103
    Mr. Larsen...................................................   103

Questions Submitted by Members Post Hearing:

    Ms. Houlahan.................................................   113
    Mr. Langevin.................................................   107
    Mr. Larsen...................................................   107
    Mr. Scott....................................................   112
    
              REVIEWING DEPARTMENT OF DEFENSE SCIENCE AND

               TECHNOLOGY STRATEGY, POLICY, AND PROGRAMS

               FOR FISCAL YEAR 2021: MAINTAINING A ROBUST

                  ECOSYSTEM FOR OUR TECHNOLOGICAL EDGE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                  Subcommittee on Intelligence and Emerging
                                         Threats and Capabilities, 
                         Washington, DC, Wednesday, March 11, 2020.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212 Rayburn House Office Building, Hon. James R. Langevin 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE AND 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. The subcommittee will come to order.
    Good afternoon, everyone. I am pleased to welcome you back 
to this committee, the Department's highest science and 
technology leadership, to testify on the fiscal year 2021 
President's budget request for the Department of Defense 
science and technology programs.
    Before us today are the services' technology and 
acquisition executives. These individuals must divide their 
attention between fielding the best technology to the 
warfighters as quickly and efficiently as possible in the near 
and mid term, and protecting science and technological 
innovations that enable the Department to keep its 
technological edge over the long term.
    Under Secretary Mike Griffin, Assistant Secretary Bruce 
Jette, Assistant Secretary ``Hondo'' Geurts, and Assistant 
Secretary Roper, we welcome you here today and look forward to 
this important discussion.
    At a time when our national defense planning has shifted 
focus to great power competition, addressing the challenge from 
rising science powers requires an ambitious plan of national 
investment and aggressive talent development in science and 
technology. Funding for basic research, applied research, and 
advanced technology development in our universities, 
laboratories, small businesses, and the tech sector seeds the 
necessary science to grow the advanced technological 
capabilities required for our next-generation military 
engagements. Yet, with bipartisan support for a drastic 
increase in investment in our national security innovation base 
in this era of strategic competition, somehow growth in the 
science and technology budget is almost always sacrificed to 
field the mature technologies of today.
    So how is it that this year, with an Under Secretary of 
Defense for Research and Engineering created for the very 
purpose of looking past the horizon, and with a National 
Security Strategy that claims to be focused on deterring the 
wars of the next two to three decades, the Department was able 
to submit a budget request that was less proposed S&T [science 
and technology] funding than last year.
    Due to inflation and labor escalation of scientists and 
engineers, and despite Congress' efforts to restore S&T funding 
each year, the S&T budget has been effectively shrinking for 
the past decade.
    In fiscal year 2021, with the total Department of Defense-
wide S&T budgets annually decreasing for the first time in 
years, we are left wondering what the future of our defense 
will truly look like. Without both Department leadership and 
Congress protecting the S&T budget, our warfighters risk losing 
the technical edge to prevail in future conflicts of ever-
evolving complexity.
    If the U.S. is to remain a global leader in technology, we 
cannot simply play defense. We must also play offense. 
Investments in science and research and other development 
efforts across the whole of government are necessary and vital 
to maintaining a technological edge. We must invest in STEM 
[science, technology, engineering, and mathematics] education; 
programs that develop junior talent into future tech leaders; 
university research; and actively endeavor to diversify our S&T 
workforce. We must implement policies that promote a sound 
economic, political, and strategic environment on U.S. soil 
where global collaboration, discovery, innovation, public 
institutions, and industry can all thrive. And I recognize that 
the open dialogue and debate of academia can mean an anathema 
to the secrecy we rely on in the Department of Defense but we 
must also recognize and embrace the competitive advantage our 
free society provides us to out-innovate and develop better 
products faster.
    Finally, I must emphasize that we will not attain the 
technological edge that we need if we refuse to take risks, 
push the scientific boundaries, and challenge the red tape. We 
must empower those who lean forward on innovation, whether it 
is to be in our laboratories, small businesses, universities, 
research offices, tech sector, or in contracting offices. I 
realize that this does not come easily for the Department, as 
the overriding culture is one of risk avoidance, but we need to 
empower the S&T workforce and community to enable technological 
leaps that will ensure that our warfighters never enter a fair 
fight.
    With that, before we turn to our witnesses, I am going to 
turn now to Ranking Member Stefanik for any remarks that she 
may have.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 35.]

STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE FROM NEW 
YORK, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE AND EMERGING 
                    THREATS AND CAPABILITIES

    Ms. Stefanik. Thank you, Chairman Langevin, and thank you 
to the witnesses for being here today.
    I want to stress how important our investments in science 
and technology, and the innovation ecosystem are to our 
national and economic security. The National Defense Science 
and Technology Strategy required by Congress and submitted in 
October of 2019 rightly noted that, quote, technology will be 
the currency of future strategic competition. This strategy 
identified the major modernization priorities, and set a course 
for continued investment, and, most importantly, persistent 
focus and accountability inside the Under Secretary of Defense 
for Research and Engineering and across the services.
    I appreciate the Department's effort energizing the S&T 
Enterprise around these critical technologies in order to 
enable our long-term preparedness for the future. There is 
recognition that the DOD [Department of Defense] cannot meet 
this challenge alone. I applaud your efforts to bolster the 
defense innovation enterprise through initiatives like the 
Defense Innovation Unit, AFWERX, Army Applications Lab, Army 
Open Campus, and NavalX. However, we must view the adoption and 
application of commercial technologies as the new normal and 
not simply through the limited lens of a pilot program. Many of 
the new technologies that are being adopted for military 
applications grew out of defense basic research but were 
matured, commercialized, and fielded with private sector 
investment. Disciplines like artificial intelligence, biotech, 
autonomous systems, and additive manufacturing have advanced 
significantly because of the investment and collaboration 
across the innovation ecosystem to include academia, industry, 
government, laboratories, and the venture capital community.
    I also firmly believe that science and technology is a team 
sport and we must partner with our allies to develop the 
technologies and policies that will provide a Western, more 
responsible alternative to China's authoritarian approach.
    The Council on Foreign Relations Task Force on Innovation 
concluded in their final report that slowing China down is not 
as effective as outpacing it. With this challenge in mind, we 
must build the alliances and partnerships that will provide the 
investment of human capital and shared research and development 
that can contest the goals of Made in China 2025.
    However, I remain concerned that our S&T investments 
represent a small amount of our overall defense budget and a 
decreasing percentage of our total RDT&E [research, 
development, test, and evaluation] budget. In fact, last year 
this Congress added nearly $2.0 billion in science and 
technology funding to the fiscal year 2020 defense 
appropriation to make up for the shortfall in the budget 
request. This Congress, and this committee particularly, 
recognized the importance of research and development to our 
long-term technological superiority. Any degradation in these 
investments places the U.S. at a competitive disadvantage and, 
more importantly, risks skipping a generation of domestic 
science and engineering expertise that is so desperately needed 
and already in such short supply in disciplines like AI 
[artificial intelligence], mathematics, computer science, and 
aerospace engineering.
    Finally, we cannot allow our own risk aversion or fear of 
failure to constrain our military from acquiring breakthrough 
technologies. Congress has made strides over the last several 
years to provide flexibility to the Department in 
experimentation, rapid innovation and acquisition, and outreach 
through public-private partnerships. I am particularly 
interested in understanding how these authorities are being 
utilized and what more we can do to improve our defense 
innovation ecosystem.
    Thank you again to our witnesses and I yield back to the 
chair.
    Mr. Langevin. Thank you, Ranking Member Stefanik.
    We will now turn to our witnesses for their testimony. And 
with that, Under Secretary Griffin, you are now recognized.

   STATEMENT OF HON. MICHAEL D. GRIFFIN, UNDER SECRETARY OF 
 DEFENSE FOR RESEARCH AND ENGINEERING, OFFICE OF THE SECRETARY 
                           OF DEFENSE

    Secretary Griffin. Mr. Chairman, Ranking Member Stefanik, I 
would, in the interest of time, would prefer to yield back my 
time for an opening statement. My written statement has been 
submitted for the record. I don't think I can improve on it. 
So, I will allow you to pass to the next witness.
    [The prepared statement of Secretary Griffin can be found 
in the Appendix on page 39.]
    Mr. Langevin. Okay. Thank you, Secretary Griffin.
    With that, Secretary Jette.

 STATEMENT OF HON. BRUCE D. JETTE, ASSISTANT SECRETARY OF THE 
 ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY, DEPARTMENT OF 
                            THE ARMY

    Secretary Jette. Chairman Langevin, Ranking Member 
Stefanik, and distinguished members of the Subcommittee on 
Intelligence, Emerging Threats and Capabilities thank you for 
inviting me to discuss the Army's science and technology budget 
for fiscal year 2021 and for making my written statement a part 
of the record for today's hearing.
    The Army's S&T program seeks to invest in a balanced 
portfolio of achieving a modernized force capable of conducting 
multi-domain operations across an array of scenarios in 
multiple theaters by 2035 and beyond. Our focus is on discovery 
and delivery of new and emerging technologies, then, maturing 
technology to reduce programs' risk.
    Technology prototypes, proof, affordable, and achievable 
requirements, experimentation with soldiers refines new 
operational concepts enabled by the emerging technologies. We 
work closely with Army's Futures Command to identify technology 
requirements in the near, mid, and forward term. Resources, 
then, are focused on Army modernization priorities, though not 
exclusively, to allow for unanticipated discovery.
    The Army's nine priority research areas include disruptive 
energetics, quantum, hypersonic flight, artificial 
intelligence, autonomy, and science of advanced manufacturing, 
which closely align with both the 8 National Defense Strategy 
rapid technology advancements and OSD's [Office of the 
Secretary of Defense's] 11 modernization priorities. We depend 
heavily on our S&T program to help prepare for the future, 
mitigate the possibility of technical surprise, and ensure that 
we are able to remain dominant in every environment.
    The Army also employs more than 25,000 military, civilian, 
and contract scientists, engineers, and technicians at 
laboratories across the country, who are critical assets in 
identifying, developing, and demonstrating technical options. 
We are grateful to Congress for the numerous staffing 
flexibilities provided to the Army laboratories, such as direct 
hire authority, renewable term appointments, and other 
initiatives that have been instrumental in growing the 
technical workforce and shaping their skills in emerging areas.
    Let me briefly talk about reform. With the support of 
Congress, the Army has undertaken a number of initiatives to 
improve efficiency and effectiveness. Our intellectual property 
policy fosters dialogue with industry early in the process so 
we are clear about our data requirements and data rights, as 
well as our efforts to maintain technological advantage.
    Talent management is critical to efficient and effective 
operations. We are not only interested in recruiting top talent 
but have a number of programs underway to retain them. This 
includes a revised recruiting, retention, and management 
program for hard skills, particularly STEM, officers in the 
military.
    Lastly, we continue to expand our industry outreach program 
to actively seek out nontraditional businesses with new and 
innovative ideas that are willing to engage with the Army. 
AFC's [Army Futures Command's] Capital Factory, Innovation 
Days, the 75th Innovation Command, combined with Industry Days 
by the program executive offices, establishment of the Rapid 
Capability and Critical Technology Office, Open Campus at Army 
Research Laboratories, xTechSearch, and many other programs 
have been fostered to just open these doors for innovators.
    Thank you for your strong support of the Army programs, the 
authorities you have provided, and this opportunity to discuss 
Army S&T.
    I look forward to your questions.
    [The prepared statement of Secretary Jette can be found in 
Appendix on page 57.]
    Mr. Langevin. Thank you, Secretary.
    Now, Secretary Geurts, you are recognized.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
 NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION, DEPARTMENT OF 
                            THE NAVY

    Secretary Geurts. Chairman Langevin, Ranking Member 
Stefanik, distinguished members of the subcommittee, thanks for 
the opportunity to appear before you today to discuss the 
Department of the Navy's science and technology efforts and how 
they support the National Defense Strategy and, most 
importantly, our sailors and Marines. It is my honor to 
represent the entire science and technology enterprise in this 
hearing today.
    Before I begin, I would like to extend the Department's 
deepest condolences to the two families of our Marine Raiders 
killed this weekend in Iraq, Gunnery Sergeant Pongo and Captain 
Navas. Their sacrifice serves as a stark reminder of the 
seriousness of our jobs, as we work together to best serve our 
Marines and sailors.
    The Department's fiscal year 2021 S&T program aggressively 
pursues increased lethality and modernization with the greatest 
potential to deliver nonlinear warfighting advantages. To 
deliver future naval power, the Navy and Marine Corps invested 
in a diverse set of innovative thinkers and doers. Included in 
this are a technical workforce at the Offices of Naval 
Research, the Naval Research Laboratory, and our many warfare 
centers. It also includes our over 341 university partners, 91 
nonprofit partners, and over 20,000 small and large businesses, 
all working together to support our efforts.
    Scaling innovation requires tool sets to enhance the impact 
of this R&D. Our NavalX office, established in 2019, creates 
the network that thickens our ability to share best practices, 
relationships, and key ideas across the entire Department of 
the Navy.
    NavalX guides, empowers, and connects our workforce to 
achieve the pivot speed that we need to have at enterprise 
scale. Part of this program includes our tech bridges, which 
leverage and establish ecosystems of expertise all across the 
country. We currently have six tech bridges established. That 
will double here in the next 30 days.
    I would like to thank Congress for the wide range of 
authorities you have provided us. The Navy is taking full 
advantage of those authorities to increase agility, refine and 
streamline our business processes, and drive efficiencies. The 
authorities are making a real difference every day in how the 
Department of the Navy both recapitalizes our capital assets 
and strengthens our workforce.
    Authorities such as 233 in the fiscal year 2017 NDAA 
[National Defense Authorization Act], allowed us to decrease 
processing time for procurement contracts, infrastructure 
action, and IT [information technology] actions. We saved over 
a half a million processing days using that authority alone. 
Again, it is making a real difference to folks down in the 
trenches and I thank you very much for that.
    As we continue to leverage these authorities and get our 
iteration speed up, we are looking for other innovative 
business and architectural strategies that will let us go at 
the speed of relevance. These include reforming our SBIR [Small 
Business Innovation Research program] process, where we have 
taken our most recent BAA [Broad Agency Announcement], our end-
to-end cycle time from idea to solution on contract from about 
124 days down to 28 days.
    We will continue to work with our teammates here at the 
table, as we all try and compete at the global scale. And we 
thank you for the strong support this subcommittee has always 
provided our sailors, and Marines, and their families. And 
thank you for the opportunity to appear here today.
    [The prepared statement of Secretary Geurts can be found in 
the Appendix on page 65.]
    Mr. Langevin. Thank you, Secretary Geurts.
    Secretary Roper, you are now recognized.

STATEMENT OF HON. WILLIAM B. ROPER, JR., ASSISTANT SECRETARY OF 
   THE AIR FORCE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS, 
                  DEPARTMENT OF THE AIR FORCE

    Secretary Roper. Mr. Chairman, Ranking Member Stefanik, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today on an important topic for our 
military, which is science and technology. It is an honor to 
represent the Department of the Air Force and to be here with 
my distinguished colleagues.
    And as I testified last year, preparing for a hearing like 
this is good for the soul. You get to go through a lot of 
amazing ideas, amazing technology that are being worked on by 
people in our laboratory that really do make science fiction 
sound like it is going to be real in the future.
    Too, I would like to highlight our one group working on 
nanosized sonograms that are trying to make the Star Trek 
``tricorder'' a reality in the future. And another is a new 
material called samarium nickel oxide, which decouples the 
temperature of that material from its thermal emission, paving 
the way for what could be a cloaking device in the future. So I 
am all for making Star Trek real for the military in the 
future. We just need a warp drive to get it over the goal line.
    It is easy to stand back from amazing technology and 
amazing ideas like that and feel comforted that the future of 
our military is in good hands. And I have all the confidence in 
our research enterprise, but our National Security Strategy 
makes it clear we are competing against peers that can match us 
tech-for-tech, person-for-person and so we have to bring a 
competitive mindset into this important portfolio and make days 
and weeks count.
    Last year we requested $2.8 billion in our S&T account for 
the Department of the Air Force, up 6 percent from the previous 
year. We were able to hold that steady in this fiscal year in 
our request but take up our research and development efforts in 
classified S&T. I would be happy to share the classified 
portfolio with you in a closed setting.
    We have also made a significant reform in consolidating our 
program elements. We are wanting to put the amount of accounts 
that we have in S&T, we want to reduce them so we have greater 
flexibility and agility to adapt to successes and also 
commercial tech trends.
    Both yourself, Mr. Chairman, and Ranking Member Stefanik, 
your opening comments make it clear that our challenge is that 
we are a free and open society competing against a closed 
society. And the closed society that China and others have give 
them the ability to nationalize their industry base and 
nationalize their S&T efforts.
    So we are going to have to find a way to make the 
Department of Defense work in this broader ecosystem in a way 
that is win-win. We are currently 20 percent of the R&D in this 
country; 80 percent is commercial. If we don't find a way to 
work in the 80 percent, then doing the 20 percent well will be 
insufficient to compete and win long term.
    So we have to do four things to become a modern S&T 
enterprise that can compete and win long term. We need to be 
the best inventor of technology that we are not going to get 
from the commercial sector either at all or on time. We need to 
be the best leverager of technology that is coming out of 
commercial innovation. We also need to be a partner and a 
catalyzer of commercial tech. And then finally, as all of my 
colleagues have noted, we have to compete for talent. All of 
this is on a foundational bedrock of quality people that are 
world-leading focused on our missions.
    So I will go through an example or two of each. In terms of 
inventing, there are so many military-unique technology 
applications that we need world-leading researchers on. 
Hypersonics and directed energy probably come to mind but there 
are things we need to start doing on next-generation solid 
state devices that will be required by the military before they 
will commercially that our research lab is leading the charge 
working with universities across the country.
    I am also excited that the Department of the Air Force has 
created a new process to help transition technology out of the 
lab and into programs of record. We didn't have one before. So 
we have modeled this process, called the Vanguard process, 
after the Strategic Capabilities Office, partnering the 
technologist with a program executive officer so that the 
details of transition, the logistics, the cost, the training 
that might not be resident in the laboratory get augmented by a 
program executive officer that knows what needs to be done to 
get to the goal line.
    We are leveraging technologies like AI across initiatives 
like ``FuelAI'' in our Distributed Common Ground Station and 
have finally gotten that to initial operational capability. And 
we are partnering on reforms like SBIR, fundamentally changing 
the way we work with tech startups, increasing our output by 
threefold and bringing companies that wouldn't have worked with 
the Air Force in. I will be happy to share more details in the 
testimony.
    Finally, the new thing we are working on that I hope to 
testify more on next year is catalyzing. I have an example or 
two which we can hit on in the hearing today but we need to 
look at where commercial markets are going, skate ahead of the 
puck, and see how the military market can help bring not just 
commercial technology to bear for the warfighter but markets to 
bear in this country faster than in our competitors. That is 
part of competing in this global ecosystem, where we play a 
role that is synergistic with our commercial counterparts.
    And finally, with respect to talent--as I said, it is 
foundational--you have given us authorities to hire better, 
hire faster, and be competitive with commercial pay scales. We 
have used these aggressively in the Air Force. We have gotten 
great talent but we can do more. We can never be satisfied with 
the talent we have.
    Thank you for your questions today and thank you, again, 
for this hearing.
    [The prepared statement of Secretary Roper can be found in 
the Appendix on page 82.]
    Mr. Langevin. Thank you, Secretary Roper, and thank you, 
gentlemen, for your testimony here today.
    We will now go to member questions. I will start by 
recognizing myself for 5 minutes.
    Secretary Griffin, I will start with you. As the R&E [Under 
Secretary of Defense for Research and Engineering], we look to 
you to champion the science and technology, and innovation 
ecosystem of the Department. Of course, we were disappointed to 
see that this year the 6.1 to 6.3 S&T budget was less than last 
year. The Defense Planning Guidance has, historically, directed 
at least zero percent real growth. So the S&T budget was, 
effectively, a half a billion dollars less than we expected. 
Indeed, your defense-wide R&E budget was even $245 million less 
than last year's request.
    How did the Department walk away from its commitment to 
protect the science and technology budget this year?
    Secretary Griffin. Sir, the Department has not walked away 
from that. We highly value S&T funding. This is a tough budget 
environment. We don't have topline growth and we have many, 
many priorities.
    As we went through our budget work, I, in fact, was an 
advocate in R&E for S&T topline growth but, in reality, there 
are no bad programs. And in an environment where we didn't have 
any bad programs we were, inevitably, in order to close our 
budget, we were going to have to make priority choices, and we 
did.
    When we talk about S&T, I will point out, on behalf of my 
service acquisition executive partners, that actually the Army 
grew by 6 percent. Navy grew by 1 percent. Air Force maintained 
zero percent real growth. It was OSD that took a 4 percent cut.
    So, the parsing of our S&T budget was done across the 
Department very carefully.
    I will only conclude by saying we did the best that we 
thought we could.
    Mr. Langevin. Well, Secretary Griffin, I appreciate your 
perspective. I see it a different way.
    But Secretary Roper, let me turn to you. I am a Star Trek 
fan so I like the idea of developing warp drive for the next 
generation but you know the reality is, you are the Air Force's 
well-known champion of innovation. How do the Air Force's S&T 
requests come out at less than zero percent real growth from 
last year's requested funding level? And how do the Air Force's 
basic research and advanced technology development decrease by 
about 8 percent each? And what will it take for the Department 
to champion the long-term science and technology budget in the 
face of demands to field new capabilities quickly?
    Secretary Roper. Yes, Mr. Chairman, as Dr. Griffin alluded, 
it was a tough budget year and, sometimes, the innovation 
voices did not win at budget closeout. A lot of things on the 
Air Force's plate, with nuclear modernization, the standup of 
Space Force, Joint All-Domain Command and Control, and, 
unfortunately, when we had to make the budget balance, we had 
to look for areas to take risk. And I share your concern. 
Taking risk in basic research may not put the military at risk 
today or tomorrow but it is eroding that foundational layer 
that creates the game-changing technologies of the future.
    The one area that I can share good news, and I would 
certainly invite the committee to take a briefing on our 
classified S&T, it doesn't get reported in wide-world S&T but, 
as we think about competing against countries like China and 
Russia, if we have foundational research, that publishing it 
would simply let our adversary jump ahead. It is great that we 
have researchers that are willing to work with us at a 
classified level, not publish their research, and help us have 
a military edge. We made a sizeable movement in that portfolio 
and I would invite the committee to take a briefing, if of 
interest.
    Mr. Langevin. Thank you. And before--the last question I 
have for Secretary Griffin.
    For the rapid technological advancements outlined in the 
NDS [National Defense Strategy] and for your 11 modernization 
priorities, last year's NDAA tasked the Department to lean 
forward strategically developing policies on how we should use 
and deploy these future technologies, and to consider how these 
emerging capabilities will contribute to new security 
strategies.
    Concurrency in policy, in tech development, I believe is 
critical to successful employment of capabilities and being a 
global leader in establishing norms for use of technologies. 
Yet, too often, policy lags development. In your view, what 
action does the Department need to take to promote concurrency 
in policy, employment concepts, training, doctrine, and other 
matters as technologies mature?
    Secretary Griffin. Sir, I will take that question for the 
record. I can't answer that here today.
    [The information referred to was not available at the time 
of printing.]
    Mr. Langevin. Okay. I think that that is pretty--would be a 
pretty basic answer. You have to make sure that we are doing 
policy development and technology development simultaneously. 
This doesn't seem to be rocket science.
    Secretary Griffin. I don't----
    Mr. Langevin. With that, I will yield back.
    Secretary Griffin. I don't disagree.
    Mr. Langevin. I yield to Ms. Stefanik.
    Secretary Griffin. I am sorry, sir. I don't disagree but 
your question was quite detailed and I want to give it the 
attention it deserves.
    Mr. Langevin. Fair enough. Thank you, Secretary.
    Ms. Stefanik, the ranking member.
    Ms. Stefanik. Thanks, Chairman.
    Dr. Griffin, I wanted to ask you about 5G. As you know, 
Congress provided $200 million to the Department in fiscal year 
2020 for the 5G Next Generation Information Communications 
Technology Initiative. This was, of course, in order to advance 
U.S. leadership in 5G and next-generation wireless 
technologies.
    The Department has requested $449 million in fiscal year 
2021. Can you explain how this is improving the government-wide 
strategy to ensure U.S. leadership in 5G and how has private 
industry, from your perspective, responded to this R&D 
initiative?
    Secretary Griffin. Second question or second part first. 
Private industry has responded with both feet, jumping in with 
both feet on the initiative that DOD has taken. We are, as I am 
sure you are aware, we have released RFPs [requests for 
proposals] to industry through our Spectrum Consortium. We are 
judging those now. We have received many proposals to 
collaborate with us. We are putting forward, initially, 
experiments on four--actually, we are going for five different 
bases because the Congress has called out Nellis as a specific 
base where we must experiment and we have four others in our 
plans.
    We are conducting 5G development experiments to include 
smart depots, smart ports, smart airports, capitalizing on the 
Internet of Things capability that 5G enables.
    Critical to our work in 5G is the concept of spectrum 
sharing, in fact dynamic spectrum sharing, so that we can get, 
if you will, more use out of the spectrum real estate that we 
have because the spectrum real estate is not increasing.
    So we are all-in on 5G at the cutting-edge level of 
learning how to do the things we have to do for both spectrum 
sharing and Internet of Things to make 5G reach the promise 
that it offers.
    Ms. Stefanik. Shifting gears, Dr. Griffin, particularly 
when we are thinking about research and, in my opening 
statement, I talked about the importance of partnerships with 
academia, with labs, with private sector. There have been 
several recent high-profile cases of researchers with ties to 
the Chinese Government and this has brought a lot of attention 
to the issue of research security and illicit technology 
transfer. These concerns are amplified when these individuals 
are working on DOD-funded research, in some cases for over a 
decade.
    Do you believe that the universities, the individual 
researchers better understand the nature of the threat? And 
what should the Department of Defense be doing to protect these 
important investments and partnerships when it comes to basic 
research?
    Secretary Griffin. We, too, are, of course, aware of these 
high-profile incidents. I don't want to be glib about this 
issue. This is one that is of the greatest importance to me, 
personally, and to the Department.
    So first of all, I want to say that identifying individuals 
who are behaving badly and, indeed, illegally is a high 
priority for us. We are implementing measures to gather more 
information about who is doing research on the DOD dime and we 
are working with universities and other research centers to do 
exactly that.
    But when we identify these people, whom we believe to be a 
small percentage of the total research community, to us this is 
evidence that the system is actually working. Are there 
undiscovered people out there who are trying to damage the 
United States? Yes, of course, there are, but this is the 
country from which other people are trying to steal. This is 
the country where other people want to send their kids to be 
educated. It should worry us if we are not the people that 
others are coming after, because then we don't matter.
    Now, we absolutely want to prevent intellectual property 
theft. We want to prevent exfiltration of key ideas to our 
adversaries. But we got where we are in the world by espousing 
an open research community, an open innovation base, by being a 
country where others could come and start businesses and 
succeed.
    Forty-five percent of our Fortune 500 companies are headed 
by a CEO who is an immigrant or the child of an immigrant. 
Thirty-eight percent of the Nobel Prize winners since 2000 are 
immigrants.
    There is a risk pool----
    Ms. Stefanik. Dr. Griffin, I understand the value of 
immigrants and I have been long a leader when it comes to 
making sure that we have an immigration system that recognizes 
the importance of those that are highly educated, particularly 
in those innovative tech sectors, as well as, in my district, 
some of the issues related to agriculture. So, I understand 
what the stats are on immigration issues.
    But I am concerned when we are surprised with headlines 
about the head of the Department of Chemistry at Harvard 
University, who is using Department of Defense research dollars 
and that information is going to China. So, while I understand 
your point that we are the innovative goal for other countries 
to look to, I cannot stress how important vigilance is to make 
sure that we understand this is taxpayer dollars.
    And when we are talking about game-changing technologies, 
whether it is AI, whether it is quantum, we need to make sure 
that the U.S. maintains supremacy and is ahead of the game.
    So I know you didn't want to be glib about it but I just 
want to underscore that having an understanding of who is 
working on these projects and, if there is any foreign 
nationals working on Department of Defense-funded research 
projects, we need to get our arms around this problem.
    With that, I yield back.
    Mr. Langevin. Thank you, Ranking Member Stefanik.
    Mr. Larsen is now recognized.
    Mr. Larsen. Thank you.
    Dr. Griffin, because we matter, as you noted, can you be a 
little more specific about what the Department is doing in 
working with DHS [Department of Homeland Security] and the FBI 
[Federal Bureau of Investigation] to share valid 
counterintelligence threats and best practices with 
universities conducting DOD research?
    Secretary Griffin. Well, we are working with the university 
community, and with DHS and FBI to do exactly as you suggest, 
to make sure we know who is working on our projects, to know 
what other funding sources, in particular, they have, to know 
what their origins and connections are, so that we can identify 
individuals who are operating here on false colors. We are 
doing those things and we are stepping up our game, as Ms. 
Stefanik suggested that we should.
    Any individual who slips through the net will be a high-
profile case but----
    Mr. Larsen. Is there any objective analysis of the work 
that you are doing that we can assess ourselves?
    Secretary Griffin. I will take that for the record and if 
we have objective analysis on statistics, we will get that back 
to you.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Larsen. Yes. Just how many chemistry departments are 
there in the United States, in American colleges and 
universities?
    Secretary Griffin. I don't know, sir.
    Mr. Larsen. A lot, probably.
    Secretary Griffin. Probably a few.
    Mr. Larsen. And there is one that happens to be at Harvard, 
which is high profile. There might be others. I don't know. But 
it is certainly a high-profile case, but it is one.
    Secretary Griffin. And one bad actor can create an awful 
lot of damage, as we have seen with other insider cases.
    Mr. Larsen. Absolutely, I agree.
    Secretary Griffin. Most of our--all of our highest profile 
exfiltrations have been insider threats, native-born U.S. 
citizens--Rick Ames.
    Mr. Larsen. Yes. Well you know, let us know how to help you 
on this because we do want to help you. So I appreciate that.
    Can you address the--in your written testimony on quantum 
science, I don't know the page number, but, quantum sciences 
will continue to emphasize atomic clocks and quantum sensors. 
These quantum technologies provide the most concrete 
opportunities, so on, and so on, and so on.
    But your statement before that says quantum science takes 
advantage of fundamental physical properties to devise new 
technologies whose performance far exceeds what is currently 
available. And then you make some comment that basically says 
we shouldn't get too excited just now; it doesn't do everything 
that people theorize, perhaps, but it perhaps can, one day.
    What are you trying to tell us about quantum science, so we 
can kind of look at it more realistically?
    Secretary Griffin. That, sir, is an excellent question. 
Thank you.
    It is difficult to pick up any magazine or newspaper 
article focusing on science and technology, generally, without 
finding some reference to quantum computing, quantum 
communication, things like that that are not beyond the 
boundaries of physics, as we understand them, but whose 
technological implementation could be and will be 
extraordinarily difficult. Those are longer term things.
    Now, the DOD is, in fact, investing substantial monies in 
quantum computing and other initiatives, but the nearer term 
initiatives that we believe will pay off are the things to 
which I alluded in my testimony.
    First and foremost, quantum clocks, to give us timekeeping 
precision--synchronized timekeeping precision two or possibly 
even three orders of magnitude better than we have today. That 
is critically important for maintaining communications in a 
GPS-denied environment, where we might have to fight a war.
    Quantum sensors for inertial navigation or navigation by 
other means--quantum magnetometers come to mind for mapping and 
then following the earth's magnetic field, which provides very 
detailed navigation information.
    These are the things that we will see in the next few years 
and where we are focusing a substantial amount of our effort.
    Mr. Larsen. And I presume, I think, perhaps, the chair and 
the ranking member, in their opening statements, talked about 
the role of commercial technologies in supporting the 
Department on this particular set of issues.
    Secretary Griffin. We are working with our commercial 
partners, some of whom are spending quite a lot of money in 
these arenas.
    Mr. Larsen. I heard they are spending a quantum amount, in 
fact.
    With that, I will----
    Secretary Griffin. Quite a lot of money.
    Mr. Larsen. Quite a lot, I am sure.
    I yield back. Thank you.
    Mr. Langevin. Thank you, Mr. Larsen.
    Mr. Abraham is now recognized.
    Dr. Abraham. Thank you, Mr. Chair.
    I read your bios on all of you and even though I have two 
advanced degrees, I feel very inadequate among your presence. I 
read your opening--your written statements. They are written by 
scientists. They are very detailed. They are very structured. 
And I appreciate the attention to detail that you gave into the 
written statements.
    Dr. Griffin, your resume, of course, precedes you with your 
stint at NASA [National Aeronautics and Space Administration] 
and your Johns Hopkins Applied Physics Laboratory head. We 
appreciate that. And I will tell all of you, I, personally, am 
very grateful that you are at the helm of these agencies, 
watching our back. We know where are bad actors. As 
Representative Stefanik said, we know they are out there. We 
certainly have to guard against them, but men and women of your 
acuity, where you are, I think we are in a good spot.
    And I simply want to give you just a minute--I will go down 
the line and start with you, Dr. Griffin--in an open mic 
scenario that we are in here, just to highlight what you would 
like to highlight in your particular realms, just briefly, so 
that the general public that may hear/watch this hearing knows 
what is going on at your level.
    Dr. Griffin, I will start with you.
    Secretary Griffin. Well, we have quite a number of 
initiatives, as has been said. We have 11 modernization 
priorities taken from the National Defense Strategy, which I 
have said publicly, and will say again, is the best I have seen 
in decades. So I am bought in.
    The NDS urges us to consider that we are, again, in a great 
power competition for the first time since the Cold War and 
urges us to understand that we will not win that competition 
with the weapons and the tools of yesterday.
    So, in my particular area, we are working on modernizing 
our space architecture. That is critical to how the U.S. fights 
and wins wars, and our adversaries know that and are coming 
after us. I have been quite public about the need for a 
hypersonics offense and defense capability, to allow us to 
match what our adversaries are doing and to be able to defend 
against them.
    In a less publicized way, we have undertaken a wholesale 
revamping of our microelectronics initiative. The DOD is--most 
of the important microelectronics work is done commercially. 
DOD is about 1 percent of the demand. We rely on our commercial 
partners completely for everything we do in microelectronics 
and none of our systems will work without it. So, we are fully 
embracing the need to be able to produce trusted 
microelectronics on a risk-assessed basis, all the way from 
initial design right through fabrication and assembly. That is 
a critical area and our industrial base is under siege from 
abroad, as you know. It is in the headlines every day.
    So those are a few--with my minute or two, those are a few 
of the things we are working on that are very high priority for 
us.
    Dr. Abraham. Thank you.
    Yes, sir.
    Secretary Jette. Sir, I will hit three quick points for 
you.
    I would like to just touch base with the bad actor 
question. For the Army, I came in, I took a look at the 
students we had in different universities.
    I went to MIT [Massachusetts Institute of Technology] to 
have--we have a UARC [university affiliated research center] 
there, so I know where to go. And I start rooting around there 
and I found out that I had twice as many Chinese students on my 
payroll as I had U.S. students.
    And I will solicit this because I need help, I think, in 
Congress. So when I began to try and negotiate with the 
university, because we send the money to the university, they 
pick the students that volunteer to come to work, not me, the 
other way around because of the way it is structured. And their 
issue is I can't tell somebody they can't apply for the program 
and be selected because we have laws against national origin 
preferences. So, they couldn't exclude the Chinese students and 
I am trying to do that. So we are both trying to apply the laws 
and apply reason, and it took us quite a while to come to a 
reasonable conclusion.
    I think it is important, not because we don't publish at 
6.1 level the work, but there is a big difference between 
reading a paper and actually having done it, and being able to 
fill all those knowledge gaps. So I just think that is one of 
the areas we could use help with.
    We, in the Army, have put a deliberate focus, as you saw. 
We kept our 6.1 to 6.3 budget robust, plussing it up about 5\1/
2\ percent, but we have increased our 6.4 budget by a third, 
fundamentally because for the last 20 years we didn't focus on 
transitioning any of the new technologies that were coming, 
both in the military sector and the commercial sector. So we 
brought those in as well. That is one reason why we have 
plussed up in that area.
    And I am over time. So, I will just finalize my third one 
is I think that there is--we could have a much deeper 
conversation on the relationship between 6.1, 6.2, and 6.3 
funds and how they play out in a timeframe, given the speed of 
technology today.
    Dr. Abraham. Well, thank you. I am out of time.
    If the other two gentlemen would give me a written 
response, I would certainly appreciate it.
    Thank you, Mr. Chairman, for the indulgence.
    [The information referred to can be found in the Appendix 
beginning on page 103.]
    Mr. Langevin. Thank you, Dr. Abraham.
    Mr. Cooper is now recognized for 5 minutes.
    Mr. Cooper. Thank you, Mr. Chairman.
    I hope that Dr. Roper's initial comments were not too 
helpful to any possible adversary out there. I know you just 
described it in the most general terms but----
    It seems to me that there are funding issues and then there 
are jurisdictional issues. And Dr. Griffin has already 
mentioned that we wish, in many ways, the funding had been 
higher.
    Let me set that aside for a minute because, with 
jurisdiction issues, we are going to have an MDA [Missile 
Defense Agency] hearing tomorrow and laser scaling was taken 
away from MDA entirely. Space sensors for hypersonics were 
given to SDA [Space Development Agency]. And as you well know, 
RKV [Redesigned Kill Vehicle] was killed entirely by R&E, 
giving us an 8- to 10-year exposure problem.
    So it seems like jurisdiction isn't necessarily being 
handled in a way that people are understanding. Now, maybe 
there is a good explanation but I am going to face a lot of 
grief from my Republican colleagues that the directed energy 
for MDA is now zero.
    Likewise, in Dr. Roper's testimony, the new NTS-3 
[Navigation Technology Satellite 3] capability looks very 
exciting; all these Vanguard programs, awesome; Skyborg, Golden 
Horde, they have cool names. I am assuming the Space Force will 
end up with these, at some point, but you know good to know.
    There is probably no good way to handle jurisdictional 
issues because everybody thinks they are the best. But can you 
help me understand some of these things--zeroing out directed 
energy for MDA?
    Secretary Griffin. Directed energy is important to us 
across the Department. The laser scaling initiative at MDA, 
again, I get back to the issue of priorities. The laser scaling 
program was one of my personal missions that I wanted to 
prosecute. However, we have limited funds, and many claims on 
those funds, and choices have to be made, and that is a program 
of significant size that could be used to supply funds for 
other areas, and is definitely longer term. It is not going to 
put a weapon in the field next year or the year after. So, we 
cut it.
    With regard to space sensors given to SDA, MDA is still 
developing the requirements for the space sensors that we need 
for the low-altitude constellation and will be developing 
those. So, however, the overall architecture is under the 
direction of the Space Development Agency and the sensors have 
to blend into a larger architecture. So I think that is the 
right move but MDA is not doing one bit less work than had been 
planned to do previously.
    I misremember your third question, sir.
    Mr. Cooper. Well why don't we just move on because 
jurisdictional issues are less important than overall funding.
    Secretary Griffin. Oh, you did mention RKV.
    Mr. Cooper. Yes.
    Secretary Griffin. If you would like me to stand down, I 
will, or I can answer.
    Mr. Cooper. Well, I think we have all understood that, 
although it is my understanding that JROC [Joint Requirements 
Oversight Council] yesterday either shortened the acquisition 
period by 2 years or it didn't at all. I have heard two 
different versions from two different attendees.
    Secretary Griffin. Well, I was there and I would say that 
neither of those is true.
    Mr. Cooper. Well what is true, 9 years?
    Secretary Griffin. The government estimate for the time to 
complete the deployment of the Next-Generation Interceptor is 
about a 10-year program. That estimate was put together at a 75 
percent confidence level so that I could have some surety that 
we were not overpromising and underdelivering.
    We believe, based on RFIs [requests for information] 
received back from the contractors, that some significant 
shortening of that period is possible. And when we have 
responses to our requests for proposal that are about to be 
released, we will be happy to come and share those with you.
    But in re-planning this program, which we canceled because 
it was failing technically, in re-planning the program, I did 
not want to give you a buy-in estimate, if you will, of 
something that a few years from now you would be looking at it 
and saying, well, Dr. Griffin's promises didn't come true. I 
didn't want to be making those kinds of promises.
    Mr. Cooper. Well, these are the same contractors who failed 
to deliver us a space vehicle that could go to space.
    Secretary Griffin. No, sir. One of the contractors who will 
be proposing will be the prior contractor but there are three 
other contractors in the competitive procurement phase, for a 
total of four, that we will be evaluating proposals from.
    Mr. Cooper. Okay, good.
    I see my time has expired. Thank you, Mr. Chairman.
    Mr. Langevin. Thank you, Mr. Cooper.
    Mr. Bacon is now recognized.
    Before we go to Mr. Bacon, today is the rollout of the 
Cyber Solarium Commission report, of which I am one of the four 
Members of Congress, and of course we had the executive branch 
participation, as well as legislative and private sector. We 
are doing the rollout today and I am departing for that event 
right now. Mr. Cooper is going to take over chairing the rest 
of the hearing.
    But I thank the witnesses for their testimony here today 
and look forward to following up on these issues.
    So, with that, again, Mr. Bacon is now recognized.
    Mr. Bacon. Thank you, Mr. Chair, and thank you, gentlemen, 
for being here.
    I have a question on the university affiliated research 
centers. As a Representative of Nebraska, I stood at the 
doorstep of USSTRATCOM [United States Strategic Command]. And 
the National Strategic Research Institute at the University of 
Nebraska is dedicated to combating weapons of mass destruction. 
It is the only university affiliated research center sponsored 
by a combatant command, which has engaged over 40 department 
sponsors and research valued at over $160 million.
    So my question is: How are the entities you represent 
investing in academic partners to support mission requirements 
and utilize the dedicated research and engineering expertise 
ready to support the Department of Defense? Thank you.
    Secretary Griffin. Well, university affiliated research 
centers, U-A-R-Cs, UARCs, are among our go-to establishments 
for when we have technical questions, technical design, 
technical development for cutting-edge projects that are not 
something industry can supply--end of sentence. So, we use them 
a lot.
    The largest of those UARCs is the Johns Hopkins Applied 
Physics Lab, up the road here in Maryland, and then we have 
smaller UARCs throughout the country. They are well and fully 
utilized, sir.
    Mr. Bacon. I know the one in Nebraska loves what it is 
doing with STRATCOM and I think they are now working with SOCOM 
[United States Special Operations Command].
    Gentlemen, anything else?
    Secretary Geurts. Yes, sir, at least for the Department of 
the Navy, they are vital, Johns Hopkins being one of many, Penn 
State. I mean they are an integrated part of our R&D 
establishment and we could not complete the mission without 
them.
    Secretary Roper. Sir, for Department of the Air Force, they 
are critical and their role is changing, now that we live in a 
world of global tech. So we love initiatives. We are working 
with universities like our AI Accelerator at MIT was a big win 
for us last year, having world-leading researchers at the CSAIL 
[Computer Science and Artificial Intelligence Laboratory] 
Institute working on problems of military import.
    But when we need to transition that technology into the 
military, we need people that understand our programs, that 
have clearances, and that have the technical chops to be able 
to guide us between the scientists and the program managers. I 
think they are going to be extremely vital to help us bridge 
between commercial innovators and the Department, just like 
they have in times past, while continuing their defense-unique 
role.
    Secretary Jette. Sir, the Army has three UARCs. One is the 
Institute for Collaborative Biotechnologies, focused on 
biotechnology from anything from consideration of disease 
issues to using biometric--or biomaterials to create electronic 
devices and material structures. That is at the University of 
Santa Barbara.
    We have the Institute for Soldier Nanotechnology, the one I 
mentioned up at MIT, where we do a great deal of technology 
development for anything from fabrics and clothing, which 
sounds not very sexy but, when you think about what Under 
Armour does and how much money they made for some of their 
clothes, apparently it is pretty interesting technology.
    And then we have the Institute for Creative Technology, 
which focuses on--it leverages the industry--entertainment 
industry and the technologies there to help us with training 
and artificial environments.
    Each of those places that we work also have a related Army 
laboratory, so that we make sure we have a relationship that 
can bring the technology out of those into the Army, when 
appropriate, or bring problems from the Army into them.
    Mr. Bacon. A follow-on question and I want to talk about--
ask about particularly nuclear C3 or NC3 [nuclear command, 
control and communications].
    Most of that technology is 1970s that we do at the new 
STRATCOM building. Is there an opportunity here with the 
universities or UARCs to figure out where we are going to go 
with the next level on NC3?
    I don't know. It is maybe more of an Air Force question but 
it could be Navy, too. Thank you.
    Secretary Roper. Yes, Congressman, we have a large portion 
of the NC3 portfolio, and absolutely.
    There are a lot of commercial technologies that we can 
bring to bear for NC3. And General Hyten, our Vice Chairman at 
the Joint Chiefs, really brings a great perspective coming in 
from STRATCOM that having the one trusted, perfectly secure way 
of communicating is probably not our future. We are going to 
need to have multiple conduits, use statistics as our ally, and 
a lot of commercial technology can aid that.
    Then similar to the previous point, we can work with 
commercial innovators but when we got to get down to classified 
applications, we need trusted insiders and that is what UARCs 
and FFRDCs [federally funded research and development centers] 
can do.
    In the case of MIT, we have Lincoln Laboratory. It is a 
federally funded research and development center sitting up you 
know at Hanscom Air Force Base that can work closely with 
campus to take technology out of that university into the Air 
Force. The same model will work well with companies.
    Mr. Bacon. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Cooper [presiding]. Thank you.
    Ms. Trahan.
    Mrs. Trahan. Thank you, Mr. Chairman.
    I am so happy that you brought up MIT Lincoln Labs, right 
in the heart of my district. Thank you for that.
    This question is actually for you, Dr. Roper. The SBIR 
program, the Small Business Innovation Research program is one 
of the most successful and effective programs that is 
authorized by Congress.
    I was surprised and, frankly, a bit concerned when I 
learned that the Air Force Innovation Unit is attempting to 
unilaterally implement drastic changes to that program. Many of 
those changes diverge from the intent of the SBIR law. And I 
know--well, I understand that you are interested in 
transforming the Air Force's acquisition system in order to 
appeal to the startup world.
    Instead of having companies submit Phase 1 proposals to 
technical topics written by the Air Force subject matter 
expert, the Air Force now has Pitch Days, where literally 
hundreds of companies are awarded Phase 1 SBIR grants that are 
not in response to a specific topic but, instead, give each 
small business initial funding and 3 months to form a 
feasibility study and customer discovery of the technology.
    I share your goal of making the Air Force and the entire 
DOD more adept at attracting the best innovation from the small 
business community but I do have concerns about the integrity 
of the SBIR program. And of course, if the Air Force wants to 
propose a new grant program, we would be happy to consider 
supporting that.
    Can you just speak to these changes, as well as the goals 
of these changes?
    Secretary Roper. Yes, Congresswoman. It is a topic I am 
truly passionate about. I will just say I know I won't be able 
to answer all your questions here. I will be happy to come chat 
with you or any other members of the committee.
    In a nutshell, the SBIR is an amazing program. It is 
amazing that we have this authority to go to work with early-
stage companies. And coming into the Air Force, the thing that 
was missing was the connection to the acquisition system, so 
companies with good technology trying to find their customer, 
their mission, and not having the program dollars to transition 
them.
    The other limiting factor we had is that our model didn't 
work really well with dual-use companies, companies that are 
working on tech that could apply to both the military mission 
as well as a commercial mission. And so with 80 percent of the 
Nation's R&D in commercial, it is a huge risk to the country if 
we can't work with that 80 percent.
    So what we have tried to with the big overhaul at SBIR is 
bring in program dollars for transition, have a model that 
works with those dual-use companies, who won't know how to 
propose to a specific DOD topic but that can propose to an open 
topic, which is bring us interesting technology and let us help 
work on mission with you.
    In the future, we have to do both. We have to keep the best 
of what worked in the past for defense-focused companies, allow 
them to work without having to work through commercialization 
channels, but we need a new process that allows commercial 
companies in.
    What I think we have succeeded on is the latter. It is 
getting most of the hype and buzz because it is new and it is 
augmenting the system in the past but our goal is to keep the 
best of both going into this year, ma'am.
    Mrs. Trahan. Great. Thank you for that. And so in terms of 
customer discovery, can you just speak to how, you know, 
normally those were written on spec for something specific. And 
now customer discovery--I understand that in the startup world 
is kind of where I came from but translate that to me in your 
world.
    Secretary Roper. Yes, ma'am. So we have those specific 
solicitations you have referenced, where we say we need a thing 
that flies this far, this fast, and a company that knows 
defense knows how to propose to that.
    A company with amazing technology won't have the people on 
staff that understand our missions. And so they may know that 
there is a military application but they don't know where it 
is.
    By having very small entry-level awards, around $50K, it 
allows the company to bring their technology, use that money to 
apply it to a military mission that we help them find so that, 
when they are talking to that customer at a Phase 2 Pitch Day--
so you have got the warfighter, the acquisition person, the 
technologist across the table and they are saying what it can 
do, they are informed and they don't have to have that DOD 
experience to get there.
    Last year we did a thousand--we brought more money into 
SBIR than has ever been in before because of the program 
dollars and private dollars that came in. We did over a 
thousand contracts, 700 companies, 350 new to the government, 
and most of them saying they had never planned to work with us.
    So we are not willing to do away with the old, but if that 
trend doesn't continue so that companies say I want to go work 
with the Air Force because it is easy to innovate with them, we 
won't keep up with China. Remember, China has a nationalized 
industry base. So this is a model to try to mitigate that risk.
    Mrs. Trahan. Great. Thank you. I yield back.
    Mr. Cooper. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chair. Dr. Roper, the last time I 
saw you was at the Advanced Technology and Training Center in 
Warner Robins, just outside of Robins Air Force Base. And we 
have talked about a lot of advanced weapon systems today.
    Could you speak to how the Air Force is using the Advanced 
Technology and Training Center to improve depot maintenance 
with regard to the more traditional weapon systems, the C-130s 
and everything that we use today?
    Secretary Roper. Yes, sir, another topic I am very 
passionate about.
    I mean 70 percent of our money is in sustainment. So just 
from a business case, we should be putting more technology to 
lower the cost of sustainment. And coming into this job early 
on, I didn't know a ton about sustainment. All of my programs 
had always been development. So it is an amazing enterprise, 
sir. The depots are true national assets but not getting a lot 
of the technology from the Air Force.
    So we did a couple of things. We stood up the Rapid 
Sustainment Office to help transition technology from the 
research lab, from industry, into the depots and flight lines. 
And they have done a great job getting predictive maintenance 
operational, 3D printing operational, and to your point, sir, 
these training centers.
    The point of the training centers is not to dump technology 
on the sustainment enterprise, where they don't know how to use 
it. So walking through, early on, there was a laser in the 
corner of the depot in one of them, I can't remember which one, 
that could strip paint off of tools that normally takes hours 
to do, but no one was using it simply because training wasn't 
there. People were afraid to.
    This is a friendly off-prem facility with some of the 
world's leading 3D printing and other technologies like cold 
spray, where we help the maintainers understand how to use it 
and the results have been phenomenal. And I definitely enjoyed 
doing the ribbon-cutting with you, sir.
    Mr. Scott. It is a great partnership. And I want to focus 
on one of the points you made. Seventy percent of the budget is 
sustainment. And one of the challenges has been with the older 
systems, sometimes the suppliers don't have the parts that are 
available. And so a lot of concern about contracting on systems 
as we go forward.
    3D printing is there. As we get into future procurement 
contracts, have the Departments adopted any type of standard 
clause that the military would be entitled to standardized 
credible designs?
    Secretary Jette. Well I can tell you what the Army has 
done. So when you are waiting to be confirmed, you may sit 
there a while, so you make a list of things that you think are 
important. One of the ones, having IP [intellectual property] 
myself, was to develop an IP policy that meant something, as 
opposed to what I had experienced when I was in the Army.
    So we developed an IP policy which gives equity to both the 
developer on the outside, make sure you have got proper 
licensing coming in, and vice versa. If the government paid for 
it, the government should not only own it, which I found is a 
big problem we have, but they should get it delivered, which I 
was always expected to do on the outside. We have a lot of 
technology we paid for but we don't have in our possession.
    So what we have done is made a specific concerted effort. I 
am trying to transition away from Level 3 drawings, which give 
me a stack of drawings, to digital models and that ties into 
advanced manufacturing. We call it advanced as opposed to 
additive because there is subtractive, there is conformal, 
there is a number of other methods, as well, we are trying to 
apply, and being able to have all that data put together in a 
digital thread that is available all the way out to the front 
edge of the battlespace.
    Mr. Scott. I appreciate that comment. That is one of my 
primary concerns. I believe in the partnerships, especially 
with the more advanced institutions that have been mentioned 
here earlier. But in the end, if we pay to develop the system, 
we shouldn't have to pay to use the system. There has got to be 
a square deal there.
    One of the questions I do have, as we talk about the move 
from the development into the actual use of it, where we get 
into a more classified scenario, is if you have an extremely 
valuable person, that is either in the private sector or 
currently working at one of the colleges, and we want to 
transition them into one of the Departments, are you limited to 
the GS schedule to transition people in, when they can make 2, 
3, 4, 10 times more if they stay in the private sector?
    Secretary Geurts. Yes, sir. This committee has given us and 
the NDAA has given us lots of authorities. There is a variety 
of them we have used, depending on the case. So I think the 
authorities are there. It is not yet common practice to do that 
at scale, I would say, across the departments. So we are kind 
of learning from each other.
    We have taken, we call it 1101 authority, 150 percent of 
SES [Senior Executive Service] pay to match that out. That has 
been a great authority to bring in. There are also experts for 
us to help on different things.
    So I think the issue is less needing authorities. We just 
need to get them into practice.
    Mr. Scott. But you are capped at 150 percent of the GS 
schedule?
    Secretary Geurts. Yes, sir.
    Secretary Roper. And there is also the enhanced pay 
authority, which has been wonderful for the Air Force. It 
allows us to go up to $318,000, I believe. It is letting us get 
great experts that wouldn't come into the government otherwise. 
I believe we have done seven hires. We are able to do 10 across 
the Department of the Air Force. The authority expires next 
year, I believe, and I would certainly ask for Congress to 
consider extending it.
    Mr. Scott. Okay, thank you. Thank you for your service.
    Mr. Cooper. Thank you.
    Ms. Houlahan.
    Ms. Houlahan. Thank you, gentlemen. Thank you, Mr. Chair.
    I don't know if you all remember about a year ago when I 
sat in this chair as a brand new freshman, I asked you a 
question regarding what are we doing to elevate women and 
people of color in STEM and, particularly, in your 
organizations. And I am a proud alum of MIT and I served at 
Hanscom Air Force Base. So I have a lot in common with all of 
you folks.
    I also aspired, when I was a young girl, to be Sally Ride 
but she said, famously, you can't be what you can't see.
    So I was really excited to see that in section 229 of the 
NDAA we had the diversification of the research and engineering 
workforce of the Department of Defense. And that was included, 
thankfully, in the NDAA. And I was wondering if you might be 
able to give us an update or an assessment on how or if you 
have learned anything since about who works within your ranks, 
what your hiring practices are to encourage diversity and 
inclusion of more people, and what you are doing to attract 
more people who are not traditional STEM professionals.
    Secretary Geurts. Yes, ma'am, maybe I will start here. And 
again, I think great learning across the Department and 
diversity in all its dimensions, whether gender, race, how you 
think, who you know, what your skills are, is our ultimate 
competitive advantage. We have got to foster that.
    The Department of Navy, a lot of focus on STEM and 
promoting from the earliest onset programs are at the high 
school intern level. We have summer interns. We have college 
interns. We have the Naval Academy has got programs. We watch 
the diversity statistics in there.
    Ms. Houlahan. But are you, in fact, watching them? I mean 
are you----
    Secretary Geurts. We are. So for the summer hires last 
year, we had 43 percent female participation at the high school 
level, 32 percent at the college level. That is not, obviously, 
where we want to get to. In the U.S. Naval Academy programs, it 
is about 60 percent female in that one dimension.
    And so we are watching it and then working hard within the 
Department to have the right workforce, how we choose people, 
how we promote them, what the selection panels look like so 
everybody has got equal opportunity, as they work their way 
through the system.
    Ms. Houlahan. Is there anything that we can be doing to be 
helpful in asking for those metrics or measure of performance 
standards? I think one thing that I reflect on in my first year 
in Congress was the ability to recruit for the academies and, 
specifically, within my office, trying to make sure that I 
understood what, of the 70 or so people who applied, what the 
diversity was there, and you know kind of asking that question 
across the country would be a good one.
    Is there anything else that we can be doing to be helpful 
in asking----
    Secretary Geurts. I would say, I mean last year, asking the 
question was helpful.
    Ms. Houlahan. Good.
    Secretary Geurts. And then continuing to ask the question.
    I think when I look at the NDAA, there is a broad set of 
authorities there. So I don't know of an authority limitation 
yet that I would highlight. But we have got to focus on that as 
we go through; the expedited hiring authority and some of the 
hiring authorities that let us pick the best performer faster 
also is a help. That way, we can find best of breed.
    And again, I would just say we need to look at it in all 
dimensions--gender, race----
    Ms. Houlahan. No, absolutely.
    Secretary Geurts [continuing]. All of them because we need 
the diversity if we are going to compete and win.
    Ms. Houlahan. Absolutely.
    Gentlemen, do you have anything else?
    Secretary Roper. Yes, ma'am, I do, and we really appreciate 
you asking the question last year.
    If we are going to compete against China long term, we 
can't have any blind spots. You need people that see the world 
all different ways, because the next Jobs, or Gates, or whoever 
could be that person that is not coming into the workforce if 
there is not an open door.
    In addition to what Secretary Geurts mentioned, one thing 
that is helping us, surprisingly, in the Air Force is the 
Direct Site Hire Authority because we are able to go out and 
work with organizations, associations that are targeting 
greater diversity in STEM fields and we are able to use them as 
job fairs at direct hiring events.
    For people that wouldn't think about coming to the Air 
Force, haven't been exposed, don't have that background, we are 
able to go out to them and not use the Federal hiring system 
that I think is too opaque and not useful.
    So we had 13 percent increase in diversity hires last year. 
I think that is great. We can't be satisfied with it but we are 
not as diverse of a workforce as we need to be. The Direct Site 
Hire Authority is a great tool to help us get there.
    Ms. Houlahan. Thank you. And other comments?
    Secretary Jette. I would just say that we did go back and 
do a good survey of our workforce, trying to make sure we had a 
good feel for our diversity. And the Army actually came out--
the report I received was that we are in good shape. We are 
proportional. We are above the percentages that the population 
is in.
    Ms. Houlahan. Meaning you look like the population, the 
general population?
    Secretary Jette. Yes, right. Actually, we probably look a 
little bit more diverse than the general population.
    Ms. Houlahan. And is that across all kinds of career fields 
or just specific careers? I mean do you look at the depth of 
kind of detail?
    Secretary Jette. Yes, I didn't look at beyond the depth of 
the inside of the ASA(ALT) [Office of the Assistant Secretary 
of the Army for Acquisition, Logistics and Technology] itself, 
in general. I will say that I think there are programs--we do 
have programs that do outreach to HBCUs [historically Black 
colleges and universities], MSIs [minority-serving 
institutions], et cetera. I think that we go out to 30,000--we 
have seen 30,000 students a year, where we send professors or 
laboratory people out to schools, do lectures, meet people. I 
know that that is a big motivator.
    Just as you said, if I don't know this is a possibility, I 
don't pursue it.
    Ms. Houlahan. Right. And I know that I have run out of time 
and I am so sorry for running over, but I really would like to 
have the opportunity to follow up with you all on this because 
I mean we are all a bunch of engineers and geeks. You know 
performance means that we have to measure it. So I just want to 
make sure that we genuinely have the metrics and performance 
standards that we are all looking towards to make sure that we 
are making progress.
    And I yield back. Thank you.
    Mr. Cooper. Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman.
    I just wanted to echo my colleague Representative 
Houlahan's encouragement and continue to work on the issue of 
diversity. And I certainly want to thank all of my colleagues 
for including, in the last NDAA a study for the National 
Academy of Science on how we can better include HBCUs and 
minority-serving institutions in our research development 
enterprise.
    Dr. Griffin, I wanted to shift to some of--echoing my 
colleague the Ranking Member Stefanik's questions on Talents, 
on how we handle our technology protection. I also sit on the 
Science and Technology Committee and I am really wrestling with 
how we balance the openness that is one of the fundamental 
aspects of academia and our research and development 
enterprise, and I think that is one of the things that has made 
it great, but protect our IP.
    And I have to be candid. I am not going to continue 
supporting the funding of Beijing's research and development. 
And I think we have to be honest, and open, and really I think 
very aggressively move out on how we strike that--how we strike 
that balance. And I agree with you. I agree with our testimony 
that immigrants form the basis. I love the statistic that you 
cited on how many Nobel Peace Prize winners have gone to 
immigrants, 38 percent I believe.
    But would you support legislation that limited or, frankly, 
barred Defense Department R&D dollars going to institutions 
that have research professors in the Talents program? I mean I 
think we need to draw a hard line but I want your perspective, 
please.
    Secretary Griffin. Specific organizations, like the 
Thousand Talents program and all that, can be highly suspect. 
And I would not want to make a blanket assertion about what 
legislation we could or couldn't go with. But yes, we are 
concerned about those kinds of organizations. We are concerned 
about the idea that we would not know who is doing work being 
done on DOD dollars. I agree with you on those concerns.
    Mr. Waltz. I think we need to--Dr. Griffin I think we need 
to--I think we are all concerned. I think we have been 
concerned for some time.
    I am interested in what concrete action and where we can 
draw some lines. They are stealing the way to the top and we 
will continue this arms race of money but we are facing an 
adversary, for the first time ever in our history, that is on 
track to have a bigger economy than ours.
    So we could have a long debate about our innovation talent 
and our values versus theirs but I am not for continuing to 
pour taxpayer dollars into their R&D. And what concretely can 
we do, can we help you all do, to stem this siphoning that 
continues to happen?
    Secretary Griffin. I understand and we are concerned. It is 
an extremely difficult problem in order that we--we don't want 
to become our adversary in the process of remaining ahead of 
our adversary. We----
    Mr. Waltz. We also don't want to be sharing a world or 
subsume to our adversary, which is President Xi's stated goal 
through the use--you know China 2025 and through, essentially, 
stealing our technological edge.
    Secretary Griffin. I could not agree more. I came back to 
the DOD in order to deal with this issue of great power 
competition with the skills that I can bring to the table, 
which are, as Ms. Houlahan was saying, geek skills and not 
warfighter skills.
    Mr. Waltz. Right.
    Secretary Griffin. But I want us to be aware of the long 
game, the long-term strategy of changing what got us to where 
we are. I want us to go after, with full force, those people 
who are here under false colors, those people who commit 
espionage or IP theft. I want us to go after the bad actors.
    Mr. Waltz. I think, just in the interest of the time, I 
would welcome a follow-on with any and all of you. I am sitting 
on both sides of this, you know, on both committees.
    But we have to be cognizant that every single Chinese 
student, professor, you name it, is violating Chinese law, 
under President Xi's intelligence laws, to not provide whatever 
they are asked for.
    So they have no choice. They can be the greatest people 
that we have ever known, and wonderful, and willing, but their 
families are held at risk should they not provide. And we have 
to be cognizant of that and I think we need to take some pretty 
meaningful and drastic action.
    Thank you. I yield my time and I look forward to a follow-
on conversation with you.
    Secretary Griffin. Thank you, sir.
    Mr. Cooper. The gentleman's time has expired.
    We will now have a second round of questions. I will 
recognize myself first.
    I was wondering if the witnesses would be willing to supply 
the subcommittee with a list of industries or scientific areas 
in which U.S. companies are not the world leaders. Because it 
is my impression, for example with 5G and our competition with 
Huawei, that the leading competitors are Ericsson and Nokia but 
not a U.S.-based company.
    So I would be interested in areas like that because I think 
sometimes we blithely assume that U.S. companies are leading 
the way, and always on top, and I think, increasingly, we may 
not be. Facial recognition--there are a number of things where 
it could be that, in order to get world-class expertise, we 
have to go outside our borders.
    Would you all be willing to supply the subcommittee a list 
like that? Okay, thank you.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Cooper. The second question is this, and this is a bit 
more lawyer-like--I am worried that contracting with the 
defense industry hasn't kept up with the times. When I was 
looking, for example, at the various RKV contracts, I saw, in 
bold print at the start of the contract, the Air Force retains 
design authority. And that looked pretty authoritative and 
important.
    And I looked further in the contract to see that the 
defense industry really was helping the Air Force to come up 
with their design parameters. So that made me wonder if this 
was circular and who, in fact, was designing the RKV.
    So it seems to me, and this is just anecdotal experience, 
that more and more our services are essentially kind of 
shopping from a catalogue to see what industry has to offer, as 
opposed to specifying to industry exactly what they need.
    We will have testimony tomorrow from a very important four-
star, and my purpose isn't to embarrass him, but he makes this 
seem like it is a virtuous thing to do. We don't know what we 
want, so why don't you tell us and then we will pick what we 
like? And that might work in an environment in which U.S. 
companies are number one but it is not going to work if U.S. 
companies are second, third, fourth, fifth place.
    Secretary Geurts. Yes, sir, from the Department of the 
Navy, I think it, like many things, depends. There is no 
absolutes.
    What I would say is the government just blindly throwing 
out a specification without understanding is it obtainable, or 
at what cost or price, is not terribly useful. Likewise, having 
the contractor propose the specification without any expertise 
or oversight is not useful.
    What we try and say in our frigate program is probably our 
best example of, we talk about the need but not the detailed 
specifications and then iterate with numerous industry partners 
in competition to find that sweet spot of capability, versus 
cost, versus schedule. And I think that is a good place to be.
    Secretary Roper. Representative, it is a great question.
    I can't speak to the RKV. That is under Dr. Griffin's 
purview. But one thing that is helping us in the Department of 
the Air Force are the rapid prototyping authorities that were 
granted by Congress. It is allowing us to push design more on 
the government side, without tying the program to a long 
production and sustainment where we can't get out of it. 
Speeding up programs, when you can prototype, is the bridge 
between the idea and the requirements that come from it to the 
production line and it is also a natural conduit to get things 
out of the laboratory into programs of record, without having 
to commit to them up front.
    The lesson we have got to learn across the Department is, 
if we fund things late to need, then you have to go with what 
industry can build. If you have the foresight to fund things a 
little ahead of need, then you have time to explore designs 
when the government is driving towards a more aggressive 
solution. And I hope that we will learn that lesson, sir.
    Mr. Cooper. Mr. Jette--Dr. Jette.
    Secretary Jette. Sir, very much like Dr. Roper, there are 
some circumstances where just shopping is probably the 
appropriate thing because we need something and we need 
something quick.
    We have, in the Army, changed our lexicon. Pretty much, we 
have said we have requirements. Now we are talking about 
characteristics versus requirements, where requirements are the 
type of thing we put on the street for a production model and 
the characteristics are the type of thing that we are evolving 
through digital design, prototyping, and a cycle between these 
and industry. That way, we can get all the way from just 
industry talking to us to building a digital design, to a 
refined design, to, finally, a prototype. And in each phase, it 
gives us a chance to get industry input and insight, where we 
may not have seen it, but not necessarily give our soul away to 
them.
    Mr. Cooper. My time has expired.
    Ms. Stefanik.
    Ms. Stefanik. I yield the balance of my time to the final 
question for the minority side to Mr. Waltz.
    Mr. Waltz. Thank you, Ms. Stefanik.
    I wanted to--two questions for you, Dr. Jette. I just 
wanted to get your assessment on the realignment of the Army 
labs under AFC, under Army Futures Command. I am sure you are 
aware there are concerns floating about short term versus long 
term and just how that alignment is going.
    The other question, I think not only for you but for 
everyone, is you know we have a lot of discussion about 
recruiting the right talent. We were just out at the JAIC 
[Joint Artificial Intelligence Center] and, maybe a little 
counterintuitively for an AI Center, their number one concern 
is human talent, right, database managers, all of the folks 
that we all struggle to bring in to the enterprise.
    One of the things that I, personally, have seen as a still-
serving guardsman is that we have a database of our civilian 
skill sets but it is not structured in a way that is useable, 
searchable, and the Guard and Reserve certainly isn't organized 
around it. So if you ask the Guard or the Reserves how many 
people do you have working at the Big Five tech firms or you 
know have those civilian skill sets that can be that bridge, 
and are they better used for that civilian skill set they bring 
in already, already cleared, already in the system, you know 
ready to go, or are they more useful as you know an O4 MP, 
military policeman, or a database scientist that they are 
bringing to the fight?
    So those are the two, the labs and then, also, that 
civilian database that somewhat exists but I think could be 
used--in my opinion, could be used better, or maybe there are 
efforts underway that I am unaware.
    Secretary Jette. Sir, both great questions.
    So AFC, the laboratory system, the DECs, the development 
and engineering centers, the Army Research Lab, the Army 
Research Office are all under one entity, CCDC [Combat 
Capabilities Development Command], under AFC.
    I have--there is an Army directive the Secretary signed out 
that puts me--continues my role as overarching supervisor of 
the facility. I work very closely with General Murray on 
programs. My head of like my DASA(R&T) [Deputy Assistant 
Secretary of the Army for Research and Technology], who is my 
deputy for research and technology, participates in program 
reviews. We have phase gate reviews. So, we are deeply involved 
in the technology, technology selection, maturation. We still 
have transition agreements from the programs.
    So I think, at this point, there is always, when you change 
something between organizations, there is--I always say there 
is forming, storming, norming. We are past any of the storming. 
We are pretty much forming. Occasionally, we will have a 
tornado roll by and Mike Murray and I will resolve the issue. 
But things are, generally, working fairly well.
    In the recruiting talent department, so it would be 
interesting to see what State you are referencing because we 
have just rolled out a new personnel system to the States. It 
is IPPS-A [Integrated Personnel and Pay System-Army] Rev. 2 and 
it should begin picking up these type of things.
    We have another one, which is going on, which is IPPS-A 
Rev. 3. That won't be out for a little bit longer and that will 
subsume everything, all three COMPOs [components], to be able 
to manage. And it has got a----
    Mr. Waltz. I would just encourage you to take a hard look 
down at the user level because all I hear are complaints about 
that system.
    Secretary Jette. Okay.
    Mr. Waltz. So I would just encourage you to deep dive 
because I still, on the weekends, jump out of perfectly good 
airplanes and then hear about the complaints.
    But it is one thing to get it structured in a new system. 
It is another thing, you know, as an institution, to mine that, 
and to utilize that, and perhaps to pluck that data scientist 
out of one thing where he is in his military occupational 
specialty and use him--him or her--excuse me--for that civilian 
skill set.
    And I think, if we saw that in the stability operations 
world--are they better as a deputy sheriff or as a trigger-
puller, right, and that back and forth--and I think I would 
venture to say that it is not a silver bullet but just 
something I would encourage you to look at.
    Secretary Jette. Yes, sir. And we never even knew the list 
before. Now we, at least, are working on getting the list.
    We pulled a number of them out and formed the 75th for work 
under AFC----
    Mr. Waltz. And DIUx [Defense Innovation Unit], but it has 
been ad hoc. It has been----
    Secretary Jette. Yes, sir.
    Mr. Waltz [continuing]. You know by personality and by who 
you know, rather than a systematic approach.
    Secretary Jette. You are right, sir. Just it is going to 
take a little time to get this turned into a real process.
    Mr. Waltz. Thank you, Ranking Member. I yield.
    Ms. Stefanik. I yield back.
    Mr. Cooper. Thank you.
    If there are no further questions, the subcommittee is 
adjourned.
    [Whereupon, at 3:46 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 11, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 11, 2020

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
      
 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 11, 2020

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN

    Secretary Griffin. There is currently no completed objective 
analysis, only preliminary results that are subject to significant 
change as additional data is acquired. Furthermore, a detailed 
description of activities and methods, to include preliminary data, can 
only be made available in a classified response. Unfortunately, the 
COVID 19 mitigation efforts are delaying information gathering 
activities and hindering analysis of the gathered material. However, we 
will ensure any analytic products are shared with you, in the 
appropriate venue, when they are completed.   [See page 12.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. COOPER
    Secretary Griffin. The Department recognizes that our future 
military superiority depends on an industrial base that is postured to 
produce the technologies of the future. Within my organization, we are 
focused on advancing technologies, cultivating expertise, and 
developing the industrial capacity to produce advanced technologies at 
scale. For a detailed assessment of U.S. industry activities expected 
to be critical to our National Defense Strategy, please refer to the 
Department's June 2019 report to Congress on Certain Defense 
Technologies Critical to the United States Maintaining Superior 
Military Capability.   [See page 27.]
    Secretary Jette. The Army may not be the best source for an 
authoritative list. However, I would gladly meet with you at your 
convenience to discuss some of my concerns and offer some 
recommendations on how to develop a comprehensive list.   [See page 
27.]
    Secretary Geurts. Technology areas with world-class expertise 
outside U.S. borders include: artificial intelligence, autonomous 
systems, battery technology, big data, microwave photonics, machine 
learning, biomedical technology, quantum, high-end carbon fiber, 
lasers, energy grids, robotics, microelectronics, 5G 
telecommunications.   [See page 27.]
    Secretary Roper. 1. Quantum Science and Materials a. Space-based 
Quantum Networks b. Quantum Materials, Cryptography, and Software c. 
Quantum Technology Component Commercialization 2. Microelectronics 
Tools and Manufacturing a. Computational Hardware for Artificial 
Intelligence and Machine Learning (AI/ML) b. Semiconductor 
Manufacturing c. Integrated Photonic Circuits d. Lithography Tools 3. 
Directed Energy Components a. Directed Energy (generally) b. High 
Intensity Laser Research, Development, and Manufacturing c. Optical 
Glass d. Infrared Materials e. Optics Mass Production (lenses, cell 
housings, and coatings) f. Commercial Silicon Visible/Near-Infrared 
Cameras 4. Hypersonics a. Hypersonics System Design, Flight Controls, 
and Optimization 5. Rocket Propulsion a. Oxygen-rich Staged Combustion 
Rocket Engines b. Upper Stage Hydrogen Engines c. Extremely High 
Pressure Engine Testing Facilities 6. Artificial Intelligence, Machine 
Learning Autonomy, and Robotics a. Application Areas in AI/ML b. 
Theoretical Computer Science for Autonomy c. Autonomous Vehicles and 
Robotics d. Commercial Drones   [See page 27.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY DR. ABRAHAM
    Secretary Geurts. The Department's FY 2021 S&T program aggressively 
pursues increased lethality through modernization efforts with the 
greatest potential to deliver nonlinear warfighting advantages. In 
order to deliver future naval power and support the National Defense 
Strategy, the Navy and Marine Corps supports our teams and partners, 
looks for new ways to speed innovation, and invests in disruptive 
technology. First, we invest in a diverse set of innovative thinkers 
and doers, including our technical workforce at the Office of Naval 
Research, Naval Research Laboratory, and our many warfare centers. This 
also includes over 341 university partners, 91 nonprofit partners, and 
more than 20,000 small and large businesses, all working together to 
support our efforts. Second, we invest in the specific tool sets 
required to scale innovation and enhance the impact of Navy R&D. The 
NavalX organization, established in 2019, creates the networking that 
accelerates our ability to share best practices, strengthen 
relationships, and share key ideas across the entire Department. NavalX 
guides and powers an innovative technical workforce and connects the 
DON to industry innovators to achieve the pivot speed needed for the 
entire DON enterprise. Third, the FY 2021 budget includes over $400 
million in funding for disruptive, revolutionary technologies in six 
major thrust areas: Directed Energy, Unmanned Advanced Autonomy/Swarm, 
Cyber, Advanced Long-Range Targeting, Hypersonics, and Full Spectrum 
Undersea Warfare. Within these thrust areas are 18 focused efforts 
including the next generation laser, future hypersonic boosters, 
artificial intelligence, and swarming. Finally, we support the 
following National Defense Strategy Research and Engineering 
modernization areas: directed energy and electric weapons, hypersonic 
capabilities, artificial intelligence and machine learning, intelligent 
autonomous systems, cyber security, networked sensors and weapons, 
advanced manufacturing, high performance materials and energetics, 
biotechnology, and quantum science and computing.   [See page 15.]
    Secretary Roper. One of the biggest shifts you'll notice in the 
Department of the Air Force's FY21 S&T budget is an increase in Budget 
Activity (BA) 6.3 (Advanced Technology Development) funding to support 
advancement of technologies ripe for transitioning to the warfighter. 
It is the Department's intent, as cited in our S&T Strategy, to 
accelerate our efforts to develop and deliver transformational 
operational capabilities. Our new Vanguard initiative, designed to 
accelerate technology from the Air Force Research Laboratory (AFRL) 
into programs of record, is modeled after the Strategic Capabilities 
Office's rapid-prototyping process. Specific Vanguard efforts are 
approved by the Department of the Air Force Capability Development 
Council, co-chaired by the Under Secretary of the Air Force and the 
Vice Chief of Staff of the Air Force, signifying an enterprise 
commitment. Warfighters, future force designers, technologists, and 
program managers ensure technical feasibility, operational utility, and 
a solid business case to work through the complexities of 
implementation and facilitate transition into acquisition and fielding. 
S&T funds will be dedicated to complete the S&T components of each 
Vanguard effort. To accelerate Vanguard transitions, Program Executive 
Officers (PEOs) are designated upfront to develop and execute an 
acquisition strategy in collaboration with the Technology Executive 
Officer (TEO). Upon successful prototyping and experimentation, the 
Department of the Air Force will transition the technology into an 
operational capability. We recently approved the first three Vanguards: 
Golden Horde, Navigation Technology Satellite 3 (NTS-3), and Skyborg. 
Golden Horde will develop and demonstrate collaborative autonomous 
networked weapons, allowing warfighters to observe and react to the 
enemy in real-time. The NTS-3 flight experiment tests enhancements to 
space-based positioning, navigation, and timing across space, control, 
and user segments, to include reprogrammable software-defined receivers 
able to rapidly respond to new conditions and ensure better security 
and flexibility. Finally, Skyborg integrates artificial intelligence 
with autonomous, attritable aircraft to enable manned-unmanned teaming 
of systems.   [See page 15.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 11, 2020

=======================================================================

      

                   QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Secretary Griffin, for the rapid technological 
advancements outlined in the NDS, and for your eleven modernization 
priorities, last year's NDAA tasked the Department to lean forward on 
strategically developing policies on how we should use and deploy these 
future technologies, and to consider how these emerging capabilities 
will contribute to new security strategies. Concurrency in policy and 
tech development is critical to successful employment of capabilities 
and being a global leader in establishing norms for use of 
technologies. Yet, too often the policy lags tech development. In your 
view, what action does the Department need to take to promote 
concurrency in policy, employment concepts, training, doctrine, and 
other matters as technology matures?
    Secretary Griffin. My organization is focused on ensuring the 
technologies and capabilities the Department is developing are those 
needed to best achieve the objectives detailed in the National Defense 
Strategy. I agree that concurrency in policy and technology/capability 
development is critical to successfully employing new and emerging 
capabilities and our goal is to be first adopters in order to build or 
maintain advantage, deter and defeat adversaries, as well as establish 
norms for the use of new capabilities. My office and the entire R&E 
organization, maintains constant communication with key DOD components 
as well as the White House Office of Science & Technology Policy (OSTP) 
to ensure new technologies and capabilities comply with applicable US 
and International laws and policies. To ensure policy does not lag 
technology development we are taking the following additional steps: 
First, as R&E develops these materiel-focused technology roadmaps, they 
must identify the technology maturation, prototyping/demonstration, and 
transition paths individually, or into legacy architectures. These 
roadmaps are essential to focus the research and development across the 
tech enterprise, synchronize the OSD mission engineering and Service 
development planning activities, and help the acquisition and 
sustainment community plan for these new capabilities across the 
product and sustainment centers. Second, after we develop the materiel 
roadmaps, we will be working with warfighters on the Joint Staff and in 
Component training and doctrine centers to identify, align, and 
synchronize needed non-materiel policy and training activities with the 
tech development. Third, we plan to put technology and prototypes in 
the hands of warfighters early to allow time for concept refinement and 
user feedback before fielding and training development. It is our goal 
to provide users with opportunities for hands-on experimentation and 
models for war-gaming as part of this early engagement.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Please describe your investments in future technical 
talent. What STEM programs are being funded and increased?
    Secretary Griffin. The Department's STEM programs under the 
National Defense Education Program (NDEP) are vital, and affect a 
spectrum of students from Kindergarten through College. It ensures that 
the Department and the Nation has enduring access to a diverseand 
highly technical workforce. It should be noted that the Components also 
have agency specific STEM efforts to support DOD's overarching goal of 
developing the 21st century technical workforce.
    Current NDEP programs:
    <bullet>  Science, Mathematics, and Research Transformation (SMART) 
Scholarship-for-Service Program. SMART provides the Department the 
ability to recruit top talent from across 21 STEM disciplines critical 
to the national security functions of the Department of Defense and its 
workforce. The program's budget increased by $6.3M from FY19 to FY20, 
and is projected to increase by an additional $6M from FY20 to FY21.
    <bullet>  STEM Education and Outreach Program. This program is 
composed of Kindergarten through College initiatives, which include the 
Military Child Pilot Program. These efforts are currently executed 
through the Defense STEM Education Consortium (DSEC). DSEC engages 
students and educators at multiple entry points across the K-16 
continuum. A DSEC cooperative agreement was awarded in March of 2019, 
and is a five-year effort of up to $75M. The program's budget increased 
by $3M from FY19 to FY20, and is projected to increase by and 
additional $2M from FY20 to FY21 as it expands to implement 
biotechnology-focused efforts, aligned to one of 11 DOD Modernization 
Priority Areas.
    <bullet>  Manufacturing Engineering Education Program (MEEP). This 
program is an effort to develop the Nation's manufacturing workforce, 
essential to the Defense Research and Engineering Enterprise. Over the 
past three years, DOD through ONR has awarded 13 MEEP grants to 
institutions of higher education, community colleges, and not-for-
profit organizations for a total of $49M.
    The Department is also committed to strengthening engagement with 
Historically Black Colleges and Universities and Minority-Serving 
Institutions (HBCUs/MIs). The DOD HBCU/MI Program plays a significant 
role in enhancing the STEM pipeline and increasing the research and 
educational capacity of HBCUs/MIs. We recognize that HBCUs/MIs are 
integral to our efforts to ensure STEM graduates in fields important to 
the DOD mission and essential for achieving Departmental priorities to 
diversify the STEM workforce. The HBCU/MI Program's budget for the FY 
2020 includes a $22M plus up for program expansion and an aerospace 
education, research and innovation center.
    To promote HBCU/MI involvement in DOD research activities and to 
build the STEM pipeline, the Department established five Centers of 
Excellence (COE) aligned with the National Defense Strategy--autonomy 
(North Carolina A&T State University), cyber security (Norfolk State 
University), research data analytics (Prairie View A&M University), 
STEM Scholars (Hampton University), and Minority Women in STEM (Spelman 
College). Collectively, the Centers achieve several objectives 
including increasing the research capabilities at HBCUs/MIs to perform 
cutting-edge research involving student support. Additionally, the 
Centers aid with graduating minorities in STEM disciplines and foster 
collaborations with other research universities. Each COE is funded at 
$1 million per year for six years. The Department continues to provide 
opportunities for minority students in STEM disciplines and prepare 
them for careers in science and engineering fields important to the 
defense mission. The Military Departments (Army, Navy, and Air Force), 
through their laboratories, offer opportunities for student involvement 
through a variety of summer programs and internships. These programs 
are designed to foster student interest in STEM education and careers 
in DOD, and to support the Department's objective of developing a 
diverse, motivated, and highly skilled civilian workforce. During the 
summer of 2019, OUSD(R&E) supported HBCU/MI involvement in STEM and 
potential research careers in DOD by placing 101 interns and 18 faculty 
fellows at DOD laboratories.
    Mr. Larsen. The Minerva Research Initiative is a basic research 
program that services as a connection between the DOD and academic 
social science communities, providing context for the Department on 
topics ranging from great power competition, strategic priorities and 
power projection strategies. Why did the Department decide to cancel 
this program?
    Secretary Griffin. During the Department's Defense-wide Review, R&E 
scrutinized and revectored our POM21 budget request to align more 
directly with the Department's National Defense Strategy technology 
modernization priority areas. Although the Department appreciates the 
contribution Minerva provided in the past, difficult choices had to be 
made among many competing priorities.
    Mr. Larsen. Tell us about the ways you are optimizing the 
opportunities of the Small Business Innovative Research program (SBIR)/
Small Business Technology Transfer program (STTR) to develop and 
transition technology into your current programs? What are you doing to 
to improve the ability to transition these technologies into programs 
of record?
    Secretary Griffin. Our office is committed to identifying 
transition and commercialization pathways for SBIR/STTR funded projects 
that provide solutions to technological challenges.
    The Small Business and Technology Partnerships (SBTP) Office, which 
manages the SBIR/STTR and Rapid Innovation Fund (RIF) programs within 
OUSD(R&E), recently hired a Technology Portfolio Manager (TPM) who will 
manage the accelerated transition of SBIR/STTR technologies (as well as 
existing RIF projects) into military and commercial applications.
    The TPM will engage with the Director of Defense Research and 
Engineering (DDRE) for Modernization and the Assistant Directors for 
each of the modernization priorities to identify opportunities for 
insertion of SBIR/STTR technologies into DOD programs of record, 
fielded systems and other transition pathways as appropriate. 
Additionally, the TPM will conduct targeted outreach to DOD Program 
Executive Offices (PEOs) and Program Managers (PMs) to expand and 
accelerate SBIR/STTR technologies/capabilities into DOD programs and 
Prime Contractors. SBTP will work to transition the SBIR/STTR 
technologies into high-priority systems for DOD programs and will 
expand small business support for technology maturation and 
manufacturing capabilities.
    To conduct effective technology transition, the SBTP will continue 
to collaborate among all of the stakeholders, to drive an iterative 
process of development, implementation, and acceptance. Both the 
technical team and the product users must be part of the end-to-end 
decision-making process. An example of this is the SBTP Office is 
currently working with the DDRE for Advanced Capabilities to develop a 
``Small Business Technology Transition'' funding pipeline for 
prototypes in the absence of the RIF program.
    In addition to the increased emphasis being placed on transition 
within the SBTP Office, each DOD Component has mechanisms for 
transitioning and/or commercializing SBIR/STTR funded projects within 
their mission portfolios. The Army, Navy, and Air Force have formal 
programs that utilize the Commercialization Readiness Program (CRP) 
authority, which allows up to 1% of SBIR funds to be used for 
administration. These programs often include cross-agency Phase II 
efforts. One of the many possible examples of best practices to enhance 
transition is the Army's use of Technical Assistance Advocates (TAAs), 
stationed within various Army organizations, who provide assistance to 
SBIR small businesses. The TAAs provide advice to SBIR projects and 
Government technologists and customers to increase transition and 
commercialization success. Another excellent example is the Navy's 
reengineered process in FY20 to ensure Navy SBIR execution is fast, 
agile, and impactful. Two efforts the Navy is piloting include their 
Technology Acceleration pilot and Accelerated Delivery and Acquisition 
of Prototype Technologies (ADAPT). Finally, the Air Force's modernized 
SBIR/STTR process offers a streamlined approach to providing many 
product solutions focused on meeting Warfighter needs using innovative 
and commercially relevant solutions. One example is the Air Force SBIR/
STTR Contracting Center of Excellence, which has developed a process in 
which the PEOs and Technology Executive Officers (TEO) are part of the 
process through all phases of the SBIR lifecycle.
    Mr. Larsen. How do your respective service S&T budget requests 
reflects R&E's 11 modernization priorities, and how have you ensured 
that your teams are working with Dr. Griffin's office as his 
modernization Assistant Directors lay out roadmaps for each?
    Secretary Jette. The Army's Science and Technology (S&T) program 
supports the National Defense Strategy (NDS) and the Under Secretary of 
Defense for Research and Engineering (USD(R&E)) modernization areas by 
focusing on enabling the Army Modernization Strategy and its 
priorities: Long Range Precision Fires, Next Generation Combat Vehicle 
(NGCV), Future Vertical Lift, Network, Air and Missile Defense, and 
Soldier Lethality. Additionally, these Army S&T efforts are aligned 
with the eight rapid technological advancements outlined in the NDS. 
Army Subject Matter Experts--within my office under the Deputy 
Assistant Secretary (Research & Technology) as well as from Army labs 
and engineering centers--coordinate directly with the USD(R&E) 
modernization Assistant Directors and through USD(R&E)'s Communities of 
Interest to ensure we are working together to solve critical technology 
problems for the Army and for DOD. Examples of efforts that are aligned 
with USD(R&E) modernization priorities include the Army Artificial 
Intelligence Task Force, significant biotechnology basic research, 
broad robotics work across the ground technology portfolio, and 
substantial work by the Rapid Capabilities and Critical Technologies 
Office in directed energy and hypersonics. Also, there are Cross 
Functional Team (CFT) efforts in Assured Position, Navigation, and 
Timing and Synthetic Training Environment under the Army's Network and 
Soldier Lethality modernization priorities, respectively. Of the $2.6 
billion (B) S&T budget (Budget Activities 1-3), $0.8B of this funding 
Secretary Jette. aligns directly to USD(R&E) priorities. The greatest 
percentage of this funding falls within Autonomy for the NGCV Army 
modernization priority ($100 million in FY21). Investments within the 
Enabling (non-CFT aligned) and Basic Research areas span the largest 
number of Office of the Secretary of Defense priorities.
    Mr. Larsen. Tell us about the ways you are optimizing the 
opportunities of the Small Business Innovative Research program (SBIR)/
Small Business Technology Transfer program (STTR) to develop and 
transition technology into your current programs? What are you doing to 
to improve the ability to transition these technologies into programs 
of record?
    Secretary Jette. In FY19, the Army restructured the governance of 
the Small Business Innovative Research (SBIR) and Small Business 
Technology Transfer (STTR) programs to ensure alignment of research and 
development focus areas with modernization (Army Futures Command) and 
acquisition (ASA(ALT)) priorities. The SBIR program was refocused on 
technology transition, manufacturability and sustainability challenges, 
and realigned with the broader Army Research Development Test and 
Evaluation program. Furthermore, the Army has encouraged early 
engagement with the Program Executive Offices (PEOs) and Program 
Managers (PMs) to provide transition opportunities for SBIR and STTR 
generated technologies into programs of record. The ability to address 
technology needs from the Army acquisition, PEO and PM community 
provides additional mechanisms and opportunities to transition small 
business generated technologies into Army programs of record. To better 
apportion funding, those funds derived from S&T taxation are managed by 
and applied to SBIR/STTR efforts which directly support S&T objectives. 
Similarly, those funds derived from 6.4 and above are applied to more 
mature SBIR/STTR efforts focused on potential programmatic use. This 
allows funds to be focused against Army needs while ensuring a full 
spectrum Research, Development, Test and Evaluation funding plan.
    Mr. Larsen. How do your respective service S&T budget requests 
reflects R&E's 11 modernization priorities, and how have you ensured 
that your teams are working with Dr. Griffin's office as his 
modernization Assistant Directors lay out roadmaps for each?
    Secretary Geurts. The DON S&T priorities are derived from the 
National Defense Strategy and solidified by the Chief of Naval 
Operation's ``Fragmentary Order 01/2019: A Design for Maintaining 
Superiority 2.0'' and the Commandant of the Marine Corps' Planning 
Guidance. The DON FY 2021 S&T budget outlines investments that support 
of these documents and align with USD(R&E) modernization efforts. The 
FY 2021 S&T investments in fundamental research include continual 
advancements in the science of artificial intelligence (AI), quantum 
sciences and computing, advanced autonomy, ocean and atmospheric 
sciences, and high performance materials and energetics. FY 2021 S&T 
investments in advanced technologies include next generation hypersonic 
boosters, full spectrum undersea warfare capabilities, advanced 
manufacturing techniques for forward logistics, operationalizing 
artificial intelligence and machine learning, cyber security advanced 
naval networks for sensors and weapons, advanced operational prototypes 
for the next generation of directed energy weapons, and autonomous 
systems focused on swarming missions and independent operations.
    Mr. Larsen. Tell us about the ways you are optimizing the 
opportunities of the Small Business Innovative Research program (SBIR)/
Small Business Technology Transfer program (STTR) to develop and 
transition technology into your current programs? What are you doing to 
to improve the ability to transition these technologies into programs 
of record?
    Secretary Geurts. In FY 2019 the SBIR/STTR program engaged with DON 
stakeholders and senior leadership to implement a reengineered process 
for FY 2020 that encourages wider participation, and increases 
relevance and speed. The reengineered process ensures Navy SBIR 
execution is fast, agile, and impactful, and encourages the use of SBIR 
as a tool to rapidly discover, develop, and deliver technology to the 
Fleet and Force. To make it easier for small innovative businesses to 
participate, the last DOD SBIR Broad Agency Announcement in 2019 
included three broad topics for the Navy. The proposal requirement was 
simplified from 20 pages to five pages, and resulted in nearly 10 times 
as many proposals received. The evaluation and selection processes were 
streamlined and resulted in 79 Phase I awards in 28 calendar days, 66% 
faster than our traditional process. The Navy used a flexible contract 
vehicle to allow multiple Phase I, II, and III awards under a single 
agreement, demonstrating an innovative approach to encourage small 
business to work with the Navy. Successful Phase I proofs of 
feasibility may receive Phase II awards, worth up to $1.6 million. When 
conditions allow, those awardees will have the opportunity to 
demonstrate their technology to industry, acquisition, and the 
investment community at a Navy SBIR Technology Acceleration 
Demonstration Day that will be scheduled at a date to be determined. 
SBIR is also piloting an Accelerated Delivery and Acquisition of 
Prototype Technologies (ADAPT) initiative intended to accelerate the 
delivery and scaling of viable operational prototypes using startup and 
venture capital principles. Key characteristics of ADAPT include: 
utilization of NDAA prototype authorities; use of milestone-driven 
award execution to accelerate delivery of operational prototypes and 
strengthen small business and DON engagements; use of Other Transaction 
Authority business practices to reduce barriers to prototype scaling 
and acquisition; incorporation of a business accelerator to access 
private investments and facilitate prototype scaling; and employment of 
flexible SBIR solicitations to include in-cycle special topics and out-
of-cycle accelerated solicitations. The ADAPT pilot is being evaluated 
in FY 2020.
    Mr. Larsen. How do your respective service S&T budget requests 
reflects R&E's 11 modernization priorities, and how have you ensured 
that your teams are working with Dr. Griffin's office as his 
modernization Assistant Directors lay out roadmaps for each?
    Secretary Roper. The Department of the Air Force increased FY21PB 
S&T funding to perform additional research in support of the following 
USD(R&E) modernization priorities: 5G; Space; Networked Command, 
Control, and Communications (C3); Autonomy; Positioning, Navigation, 
and Timing (PNT); Nuclear; and Microelectronics. We also increased 
experimentation and prototyping investments for Networked C3 and 
Autonomy to accelerate transition of key technologies. Over the past 
two years, we have focused extensive efforts and resources to 
invigorate the Small Business Innovation Research (SBIR)/Small Business 
Technology Transfer (STTR) programs to increase both the speed and 
probability of transition of into programs of record. These valuable 
S&T dollars are moving small business technologies forward in priority 
mission areas. For example, in support of the OUSD(R&E) Space 
modernization priority, we held a first-ever ``Space Pitch Day'' in 
November 2019. This event had acquirers, warfighters, and technologists 
from across the Air Force listen to pitches from 30 separate companies 
and make the selections of potentially game-changing concepts. The Air 
Force awarded 30 contracts at $750,000 apiece, a total of $22.5 
million, with some of the companies going on to compete for even larger 
awards. Additionally, more than 100 private investors attended the 
pitch day which provided the small businesses unprecedented 
opportunities for matching investments. This June, we are hosting a 
virtual ``Quantum Collider'' event to bring together government, 
industry, academia, and the small business community in this important 
technology area. We're looking to make up to 36 awards at $150,000 per 
award to enable small business innovation to quickly transfer advanced 
quantum technologies to our warfighters. These Pitch Day-type events 
create a faster, smarter method to evaluate cutting edge technologies, 
award contracts to small businesses, and provide them an accelerated 
path to commercial success.
    Mr. Larsen. How is the Air Force working with the Strategic 
Capabilities Office (SCO) and the Defense Innovation Unit (DIU)? How 
are these organizations working with your organization, including labs, 
your Small Business Innovation Research office, and others, to promote 
and transition technological innovation?
    Secretary Roper. The Department of the Air Force works closely with 
both the SCO and DIU on a wide range of initiatives to promote and 
rapidly transition technological innovation. The Air Force Research 
Laboratory (AFRL) works closely with SCO on various ventures, including 
experimentation with a hyper velocity projectile system for countering 
the cruise missile threat. The AFRL team is also collaborating with 
SCO's Avatar program to share lessons learned on pairing manned fighter 
jets with unmanned systems in the rapid development of Skyborg. As a 
Department of the Air Force Vanguard initiative, Skyborg is integrating 
artificial intelligence (AI) with autonomous unmanned air vehicles to 
enable manned-unmanned teaming with a focus on accelerated transition 
to a program of record. We also work closely with our counterparts at 
DIU to promote and transition technological innovation. For example, in 
collaboration with DIU's National Security Innovation Network (NSIN), 
NavalX, and Army Futures Command, we ran the first-ever joint Small 
Business Innovation Research (SBIR) Open Topic in February 2020. This 
joint effort yielded tremendous results, with 1,000 SBIR applications 
for a single topic, and the award of contracts to 500 companies in less 
than 30 days from solicitation. There is also significant overlap of 
people and informal relationships between the Air Force and DIU because 
so many of the military members working at DIU come from the Department 
of the Air Force.
    Mr. Larsen. Tell us about the ways you are optimizing the 
opportunities of the Small Business Innovative Research program (SBIR)/
Small Business Technology Transfer program (STTR) to develop and 
transition technology into your current programs? What are you doing to 
to improve the ability to transition these technologies into programs 
of record?
    Secretary Roper. Competing across the entire technology ecosystem 
is a new challenge for the Department--especially with 80 percent of 
our nation's R&D now commercial--but it is one in which we have made 
great progress. Over the past two years, the Department of the Air 
Force has focused extensive efforts and resources to invigorate the 
Small Business Innovative Research (SBIR)/Small Business Technology 
Transfer (STTR) programs and increase both the speed and probability of 
transition to programs of record. Since many of our past efforts were 
disparate and ineffective at helping build tomorrow's commercial-tech-
enabled Air Force and Space Force faster and smarter, we've developed 
Air Force Ventures (AFVentures) as our much needed process for tapping 
into the commercial innovation eco-system. The AFVentures model 
improves opportunities and access to small businesses to solve 
Department of the Air Force technology challenges using existing 
commercial solutions. It provides a simple pathway for U.S. small 
businesses to go from first contract with the Department to a program 
of record in as little as 24 months. Our open-door approach improves 
access to small businesses solving problems using existing commercial 
solutions and incentivizes private capital investment in national 
security interests. We've already demonstrated remarkable success. 
We've grown the industrial base by bringing 1,000 new small businesses 
into the SBIR/STTR fold. With five dollars of commercial investment 
matching every one SBIR dollar--and 85 percent coming from private 
capital--we're seeing over three dollars from private capital for every 
taxpayer dollar invested. The program has leveraged over $1 billion in 
private capital in just two years. We look forward to continued 
communications with Congress on the innovative AFVentures process and 
how we're making great strides in optimizing SBIR/STTR opportunities to 
meet the priorities of the National Defense Strategy.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. In a March 6, 2018, Breaking Defense article, you are 
quoted as saying, ``The Chinese love our acquisition system. They are 
the biggest fans of our acquisition there possibly could be.'' Do the 
Communist Chinese still love our acquisition system today? If they 
still do love our acquisition system, what can Congress do to make them 
stop loving our acquisition system?
    Secretary Griffin. Thanks to the hard work of Congress and the 
Department, I would like to think the Chinese are loving us a little 
less these days. That being said there is still much work to be done 
and we are engaging with our colleagues across the Department to 
continue to add speed and flexibility to our acquisition process, so 
that we don't just pace the Chinese threat but achieve and maintain a 
distinct advantage. We ask that Congress continue to work with us to 
identify and repeal acquisition roadblocks and add authorities as 
needed.
    Mr. Scott. Hypersonic threats are beyond the ability of any current 
U.S. systems to engage. Why did the Department of Defense allow this to 
happen despite decades of research? What lessons can be learned?
    Secretary Griffin. The U.S. has been a world leader in hypersonic 
research for decades, however, we have consistently made the decision 
to not transition that technological advantage to the warfighter. We 
have not pursued hypersonic technologies with a sense of urgency or 
clear direction, which has led to a slower rate of progress compared to 
China and a lack of sufficient investment in the necessary 
infrastructure and workforce needed to support multiple acquisition 
programs. There are many reasons for that and opinions differ, but one 
could argue that with the fall of the Soviet Union and the rise in the 
global war on terror (GWOT) there has not been a strong threat driven 
demand for the sophisticated capability enabled by hypersonic systems. 
In the global war on terror, we have enjoyed battlefield dominance on 
land, in the air, at sea and in space without the need for developing 
hypersonic capabilities. With our focus directed to the GWOT, a 
resurgent Russia and an aggressive China studied our capabilities and 
the systems that enabled our domain dominance on the battlefield, and 
systematically developed capabilities to challenge that dominance in 
every domain, including in the case of China, a highly capable 
portfolio of hypersonic systems. Until the most recent National Defense 
Strategy and the pivot from an almost complete focus on GWOT to a focus 
on Great Power Competition, we simply did not have a priority on paying 
attention to, and countering, the strategy and buildup of our great 
power competitors. At the same time, China, and to a lesser extent, 
Russia, have been able to capitalize on our early advances in 
hypersonics across the board, and saw this as an area in which they 
could match or exceed our capabilities. They read our literature, 
watched our experiments, and invested heavily in people, 
infrastructure, and programs. As a result we find ourselves in a 
competition where our adversaries are fielding advanced capabilities, 
including hypersonic systems, at an alarming pace and we are having to 
greatly accelerate our pace of modernization. To that end, we have 
created DOD Modernization Priorities, including one for Hypersonics, to 
accelerate our competitive posture with a renewed focus on China and 
Russia. The Hypersonics modernization priority includes development of 
offensive hypersonic systems to provide capability to defeat the range 
of adversary high end systems that challenge our battlefield domain 
dominance, as well as, systems to defend against adversary hypersonic 
capabilities. Relative to lessons learned, the primary lesson is that 
we need to continue to balance our investments, keep our attention on 
the full range of challenges to our National defense, and have the 
vision and fortitude necessary to ensure we always have technical 
advantage against our current and future potential adversaries.
    Mr. Scott. Given the rise of 3-D printing, should future 
procurement contracts include a clause that the military be entitled to 
standardized, printable designs?
    Secretary Griffin. The Department is evaluating how best to employ 
technological advances in 3-D printing to improve sustainment and 
product support for its weapon platforms and other critical systems. 
This evaluation is part of a broader review of advanced digital 
manufacturing capabilities that contribute to the Department's 
implementation of its digital engineering strategy. The Department's 
procurement practices will require updating to keep pace with our needs 
to employ 3-D printing. The revision and addition of standardized terms 
and conditions will be part of this update. The specific application of 
these requirements to the procurement of printable designs will be 
driven by appropriate business case analysis that balances the costs, 
benefits and risks of acquiring this technical data, rather than 
through Department-wide fiat. Our approach is focused on identifying 
requirements for acquiring such data in a manner that can be integrated 
smartly into the acquisition strategies and product support strategies. 
Business case analysis will allow us to understand when it is 
appropriate and cost-effective to acquire and license such data. 
Alternatively we may encounter cases in which 3-D printable product 
design has been developed without DOD funding and must be treated as 
proprietary data of the original designer/vendor. In such instances it 
may not be cost-effective to acquire the necessary license rights for 
that data. The Department will seek to employ a consistent approach 
that can also be adapted to address specialized needs of different 
programs and platforms.
    Mr. Scott. DOD invented the new geographic domain of warfare known 
as cyber. What assurances can you give this committee that should DOD 
invent another new domain of warfare that it won't be shared with our 
enemies to weaponize against us?
    Secretary Griffin. R&E defers to the Joint Staff.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HOULAHAN
    Ms. Houlahan. It seems there is a new area of concern we have 
entered with China regarding advanced biomanufacturing. As China looks 
to advance their biomanufacturing capability, I understand they've 
signaled willingness to use biotechnology and other emerging 
technologies against their opposition and adversaries without respect 
for protocols, conventions, or human rights.
    What is the Department is doing to ensure we remain ahead of China 
in biotechnology?
    Secretary Griffin. To maintain biotechnological overmatch 
capabilities, the Department of Defense named biotechnology a 
modernization priority. Each modernization priority is led by an 
Assistant Director or Technical Director, who is responsible for 
unifying and advancing the Department's investments and capabilities in 
that area. Biotechnology modernization is focused on developing 
critical resources and capabilities to field biotechnology-enabled 
products. Under these modernization efforts, the Department started a 
Biotechnology Community of Interest (COI) in December 2019. The purpose 
of this COI is to: 1) coordinate, roadmap, and prioritize biotechnology 
research, development, testing, and evaluation (RDTE) efforts across 
the Department components and 2) advance biotechnology capabilities 
towards applications in varied mission domains, including material and 
systems, human performance, military medicine, and chem-bio defense. 
Recognizing critical gaps in U.S. biomanufacturing, DOD is establishing 
a Bioindustrial Manufacturing Innovation Institute (MII). The 
Bioindustrial MII will accelerate emergent biomanufacturing 
technologies and processes with the goal to successfully transition 
science and technology research into defense and commercial products 
within a globally competitive U.S. manufacturing ecosystem. The 
Bioindustrial MII will serve as a bioindustrial innovation hub, 
providing the infrastructure to support biomanufacturing enterprises of 
all sizes and ensuring that the U.S. biomanufacturing industry is a key 
pillar in an enduring and thriving bioeconomy. Standing up a MII for 
biomanufacturing will establish U.S. technical leadership, greatly 
expand U.S. capacity, provide key capabilities to ensure DOD 
biotechnology modernization, and lead to commercialization of 
biomanufactured products. Concept papers for the MII are due May 4, 
2020 and the DOD anticipates making an award in Fall 2020.
    Ms. Houlahan. Are there any programs within the DOD that allow mid-
level serve members the opportunity to go out and work in STEM academia 
for a designated amount of time, and then bring their expertise back to 
the Department?
    Secretary Griffin. There are programs with the Department that 
allow mid-level civilian members the opportunity to work in STEM 
academia. Specifically, the Science and Technology Reinvention 
Laboratories (STRLs) have sabbatical-like programs. These sabbatical-
like programs allow the employees within the STRLs to work with 
academic institutions to benefit their organization's mission. These 
programs require a service agreement and must demonstrate value to the 
organization's mission. Included below are excerpts from the internal 
operating procedure from an Army and Air Force STRL that describe their 
programs.
    Combat Capabilities Development Command (CCDC) Armaments Center 
(AC)
    Sabbatical. The CCDC AC Director has the authority to grant paid or 
unpaid sabbaticals to all career employees. The purpose of a sabbatical 
will be to permit employees to engage in study or uncompensated work 
experience that will benefit the organization and contribute to the 
employee's development and effectiveness. Each sabbatical must result 
in a product, service, report, or study that will benefit the CCDC AC 
mission as well as increase the employee's individual effectiveness. 
Various learning or developmental experiences may be considered, such 
as advanced academic teaching, research, self-directed or guided study, 
and on-the-job work experience. One paid sabbatical of up to twelve 
months in duration or one unpaid sabbatical of up to six months in a 
calendar year may be granted to an employee in any seven-year period.
    Air Force Research Laboratory (AFRL)
    Developmental Opportunities Program. The AFRL Developmental 
Opportunities Program (DOP) is available for all employees at a Science 
and Technology Reinvention Laboratory (DEMO Employees). This program 
provides a process for personnel to acquire knowledge and expertise 
that cannot be acquired in the standard working environment. These 
activities should enhance the employee's contribution upon his or her 
return to the organization. Each developmental opportunity must benefit 
both AFRL and the individual employee. The spectrum of available 
activities under this program is limited only by the constraint that 
potential contribution to AFRL's mission exists. The program can be 
used for training/educational opportunities, such as training with 
industry or on-the-job work experience with government, public, 
private, or nonprofit organizations. It may enable an employee to spend 
time in an academic environment such as advanced academic teaching or 
research. An individual may also take advantage of this program to 
devote full-time effort to writing technical papers, articles, books, 
entrepreneurial opportunities, etc.
    In addition to the STRL sabbatical program, the Basic Research 
Office within the Office of the Under Secretary of Defense for Research 
and Engineering manages the Laboratory-University Collaboration 
Initiative (LUCI). This program facilitates and competitively funds 
leading DOD-service Laboratory scientists in a three-year basic 
research collaboration with prominent University professors who 
participate in the Department-wide fundamental research programs, 
specifically Vannevar Bush Faculty Fellows (VBFF), and current and 
previous Principal Investigators (PI) and co-PIs of the 
Multidisciplinary University Research Initiative (MURI) program. The 
partnerships between the competitively selected DOD Laboratory 
researchers, members of their team, and the university researchers are 
designed to enhance the Service Laboratories' primary objectives of 
bringing better capabilities and expertise to the Warfighter, while 
enhancing and sustaining prominent academic researchers' interest in 
defense technology development. The topical areas these funds and 
efforts support include, but are not limited to; quantum information, 
bio-engineering, and materials sciences, as well as applied 
mathematics, artificial intelligence, and cognitive neuroscience.
    Ms. Houlahan. Following on the importance of developing the 
Department's policies and understanding the implications of these many 
emerging threats, we are disheartened that this year the Department 
decided to terminate the Minerva program. Minerva is a unique social 
science basic research program that has helped DOD understand 
nontraditional threats to national security--from the rapid growth of 
China's technological prowess; to the human systems underlying the 
cyber threat; to the behavior of populations involved in conflicts; and 
to the mind of a suicide bomber. How can the Department continue to 
build out its policies without having the tools, techniques, and 
frameworks to understand the dramatically changing landscape of our 
future threats?
    Secretary Griffin. During the Defense Wide Review, R&E conducted a 
rigorous prioritization of its RDT&E activities and identified where 
funds could be reinvested in lethality and readiness. Key DOD 
investments made possible by this reprioritization included: quantum 
science, biotechnology, artificial intelligence, and 5G. While the 
Department remains committed to drawing on the contributions of the 
social sciences to address the broad range of threats we face difficult 
choices had to be made among many competing priorities.
    Ms. Houlahan. According to a Defense Science Board report, ``most 
Lab Directors feel they are unable to maintain their facilities and 
infrastructure at a reasonable standard.'' The FY20 NDAA directed the 
Secretary to develop an infrastructure master plan to support research, 
development, test, and evaluation missions in the Department. How are 
you working to support this requirement? And can each of you please 
discuss the state of your research laboratories and how the budget 
addresses your concerns about maintaining the labs at the standard 
necessary to conduct cutting edge research and attract the same level 
of talent?
    Secretary Griffin. As directed by Section 252 of the FY2020 NDAA, 
my staff is working with the Military Departments to draft the 
Infrastructure Master Plan. It will be submitted to Congress by the 
mandated date of January 1, 2021. As conveyed in this year's Report to 
Congress on Unfunded Requirements for Laboratory Military Construction 
Projects: Section 2806 of the NDAA for Fiscal Year 2018 (Public Law 
115-91), funding DOD laboratory military construction is a critical 
issue. The current state of the research laboratories is reflected in 
the large number (126) of unfunded laboratory MILCON requests submitted 
by the Military Departments. Up-to-date facilities increase mission 
readiness and attract top talent, ensuring the Department is able to 
meet future capability and preparedness efforts. However, maintaining 
the laboratories is an ongoing problem, as the Military Departments are 
prioritizing readiness with the scarce MILCON funding available. 
Despite this, the Military Departments are slowly modernizing their 
facilities and there are ongoing projects within the Army, Navy, and 
Air Force.
    Ms. Houlahan. According to a Defense Science Board report, ``most 
Lab Directors feel they are unable to maintain their facilities and 
infrastructure at a reasonable standard.'' The FY20 NDAA directed the 
Secretary to develop an infrastructure master plan to support research, 
development, test, and evaluation missions in the Department. How are 
you working to support this requirement? And can each of you please 
discuss the state of your research laboratories and how the budget 
addresses your concerns about maintaining the labs at the standard 
necessary to conduct cutting edge research and attract the same level 
of talent?
    Secretary Jette. Army laboratory facilities have an average age of 
more than 50 years. The Army requires modern buildings, equipment and 
other resources to continue developing cutting-edge technology that 
supports the Soldier and continue to attract, recruit, and retain the 
most talented science, technology, engineering, and math (STEM) 
personnel. In accordance with Section 252 of the Fiscal Year 2020 
National Defense Authorization Act, the Army is revising, developing, 
and implementing the master plan to address infrastructure (physical 
and intellectual) and modernization requirements across the department. 
The Army is currently evaluating baseline competencies, including 
function, capacity and quality in technology areas that support the 
National Defense Strategy and Army Modernization Strategy to ensure our 
current facilities can address emerging and future needs. Funding for 
mission-specific facilities maintenance, e.g., labs, and general 
modernization is based on the Army's Research, Development, Test and 
Evaluation budget and, when specific needs are identified, additional 
funding is requested through the budget process
    Ms. Houlahan. According to a Defense Science Board report, ``most 
Lab Directors feel they are unable to maintain their facilities and 
infrastructure at a reasonable standard.'' The FY20 NDAA directed the 
Secretary to develop an infrastructure master plan to support research, 
development, test, and evaluation missions in the Department. How are 
you working to support this requirement? And can each of you please 
discuss the state of your research laboratories and how the budget 
addresses your concerns about maintaining the labs at the standard 
necessary to conduct cutting edge research and attract the same level 
of talent?
    Secretary Geurts. Ensuring the Navy R&D community executes their 
mission in state-of-the-art facilities is a priority for the DON. We 
have established a new Facilities Operating Model (FOM) that has the 
labs develop strategic infrastructure plans. The DON is fully 
leveraging Title 10 Section 2363 investments for repair and 
revitalization of our laboratory facilities and we anticipate this 
authority to be a major tool in the future strategy. The DON continues 
to maximize the use of Section 233 authority from the FY 2017 NDAA that 
provides enormous flexibility to our Sustainment, Repair, and 
Modernization program to promote speed of execution through both public 
and private service providers.
    Ms. Houlahan. According to a Defense Science Board report, ``most 
Lab Directors feel they are unable to maintain their facilities and 
infrastructure at a reasonable standard.'' The FY20 NDAA directed the 
Secretary to develop an infrastructure master plan to support research, 
development, test, and evaluation missions in the Department. How are 
you working to support this requirement? And can each of you please 
discuss the state of your research laboratories and how the budget 
addresses your concerns about maintaining the labs at the standard 
necessary to conduct cutting edge research and attract the same level 
of talent?
    Secretary Roper. The Air Force Research Laboratory (AFRL) developed 
a 5-year facility master plan, which supports the Secretary's 
requirement. The plan identifies facility requirements from various 
funding programs (e.g., MILCON, RDT&E, O&M) and was recently reviewed 
for its alignment to the National Defense Strategy. While our 
laboratory facilities are capable of meeting current requirements, they 
will require updates to conduct the cutting edge research necessary to 
compete with a near-peer adversary and meet the long-term requirements 
in the National Defense Strategy. The AFRL Commander uses the 
authorities given in 10 U.S.C 2363(a) and 10 U.S.C. 2805 [Unspecified 
Minor Construction] to help address laboratory improvements, including 
revitalization of laboratory facilities. As authorized in 10 U.S.C. 
2363(a), up to 4% of the funding available to the AFRL Commander is 
used to support state-of-the-art research facility improvements in line 
with strategic research and development. In recent years, this amount 
has totaled about $32 million per year spent on AFRL facilities. 
Additionally, AFRL fully uses the special Unspecified Minor 
Construction laboratory authority which provides for increased single 
project construction thresholds of $6 million. This helps address some 
of the lower cost facility projects, and increases AFRL's ability to 
maintain facilities at the standard necessary to conduct cutting edge 
research and attract top-tier talent.

                                  <all>
</pre></body></html>
